<html>
<title> - FACT CHECK: AN END OF YEAR REVIEW OF ACCOUNTABILITY AT THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










 FACT CHECK: AN END OF YEAR REVIEW OF ACCOUNTABILITY AT THE DEPARTMENT 
                          OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, DECEMBER 9, 2015

                               __________

                           Serial No. 114-48

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-362                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






















                            C O N T E N T S

                              ----------                              

                      Wednesday, December 9, 2015

                                                                   Page

Fact Check: An End Of Year Review Of Accountability At The 
  Department Of Veterans Affairs.................................     1

                           OPENING STATEMENTS

Honorable Jeff Miller, Chairman..................................     1
Honorable Corrine Brown, Ranking Member..........................     8
    Prepared Statement...........................................    39

                                WITNESS

Honorable Sloan Gibson, Deputy Secretary, U.S. Department of 
  Veterans Affairs...............................................     1
    Prepared Statement...........................................    39

        Accompanied by:

    Meghan Flanz, Deputy General Counsel, Legal Operations and 
        Accountability, U.S. Department of Veterans Affairs

                        STATEMENT FOR THE RECORD

Office of Inspector General......................................    46
 
 FACT CHECK: AN END OF YEAR REVIEW OF ACCOUNTABILITY AT THE DEPARTMENT 
                          OF VETERANS AFFAIRS

                              ----------                              


                      Wednesday, December 9, 2015

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:31 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Roe, 
Benishek, Huelskamp, Coffman, Wenstrup, Walorski, Abraham, 
Zeldin, Costello, Bost, Brown, Takano, Brownley, Titus, Ruiz, 
Kuster, O'Rourke, Rice, Walz, and McNerney.

           OPENING STATEMENT OF JEFF MILLER, CHAIRMAN

    The Chairman. Good morning, everybody. Thank you for being 
with us at today's hearing entitled Fact Check: An End of Year 
Review of Accountability at the Department of Veterans Affairs. 
I want to welcome our first and only panel to the table this 
morning. With us is Deputy Secretary Sloan Gibson for the 
Department of Veterans Affairs, and he is accompanied by Meghan 
Flanz, who is the Deputy General Counsel for Legal Operations 
and Accountability at the VA. We thank both of you for being 
here this morning. And I want to get straight to the witness' 
testimony and Ms. Brown is running a little bit behind. So I am 
going to allow Sloan to give his testimony before we give our 
opening statements. So Mr. Gibson, you are recognized now for 
five minutes.

                   STATEMENT OF SLOAN GIBSON

    Mr. Gibson. Thank you, Mr. Chairman. Let me get right to 
the point. In my many years in the private sector, I have never 
encountered an organization where leadership was measured by 
how many people you fired. And there is a simple reason for 
that, you cannot fire your way to excellence. I can promise you 
that a large and complex customer service organization will 
never deliver a great customer service experience, will never 
consistently deliver great outcomes if employees are living in 
constant fear of being punished for making a mistake. When 
enforcing discipline is the central element of accountability, 
an organization will not deliver sustained excellence.
    Having said all of that, consequences for behavior that is 
inconsistent with our values is part of effective leadership. 
In those cases we pursue disciplinary action appropriate to the 
offense and supported by evidence. I am committed and VA's 
senior leadership is committed to taking those actions.
    We have asked this Committee to be one of our most 
important partners in the forward looking transformation of the 
department. We are all after the same ultimate objective, 
improving care and benefit outcomes for veterans. The only way 
we can achieve that shared objective is through strong forward 
looking leadership based upon what Bob and I call sustainable 
accountability. That is accountability that results in positive 
veteran outcomes, not just in the near term, but also in the 
long term. It is supervisors that are providing routine 
feedback to subordinates, recognizing what is going well and 
coaching where improvements are necessary. It is ensuring all 
employees understand how daily work supports our mission, 
values, and strategy. It is training leaders to lead and 
employees to exceed veterans' expectations everyday. It means 
making things right for veterans quickly and responsively, and 
learning from mistakes, understanding what went wrong and then 
fixing it. It is candidly assessing performance based upon 
merit and achievements and rewarding exceptional results. And 
it is taking corrective action when warranted and supported by 
evidence. If we have all of that, we have sustainable 
accountability. The same comprehensive notion of accountability 
that you find in virtually every high performing organization 
in the private sector.
    I have often said that if VA was in the private sector it 
would be a Fortune 10 company, making enduring cultural and 
fundamental process changes in an enterprise of that size and 
complexity takes time. It takes persistence and some amount of 
patience. But investments in sustainable accountability are 
already paying off in improved veteran outcomes. Let me give 
you a very important example.
    SAIL, S-A-I-L, Strategic Analytics for Improvement and 
Learning. SAIL is a tool that we use to measure veteran health 
care outcomes at every VA medical center, measures around 
quality, safety and efficiency, among others. Shortly after I 
arrived at VA, I learned about SAIL and looked into the 
correlation between hospital directors' performance ratings and 
the health care outcomes being delivered by their facilities as 
measured in SAIL. Here is what I found, stellar performance 
ratings at some of the lowest performing facilities. So 
beginning in October of 2014, we integrated veteran health care 
outcomes as measured in SAIL into every single medical center 
director's performance objectives. What happened?
    Well for starters, SAIL became one of the most widely used 
management tools in the department, that tells you something to 
begin with. And roughly 60 percent of VA medical centers 
improved the health care outcome for veterans over the course 
of the year. How good is SAIL? The chief medical officer at one 
of the largest health care organizations in America told me 
that if he had SAIL in his organization he would implement it 
tomorrow. That is sustainable accountability. Delivering better 
outcomes for veterans, not just right now, but for the long 
term.
    I suspect Bob and I have visited more VA facilities, spoken 
to more veterans and VA employees in the last 18 months than 
any pair of top VA leaders in the department's history. We find 
employees as we are out there who care about the mission, who 
want to do the right thing, and who work hard everyday to serve 
veterans. Yet, if we take rhetoric as fact then, particularly 
as it relates to scheduling and access, VA is rife with 
corruption. To review the record, of the more than 100 
investigations the IG launched based on the access field audit 
that we conducted last year, to date, we have received reports 
and evidence relating to 77 of those. The IG substantiated 
intentional misuse of scheduling or other access data at six 
sites. In our follow-up, we substantiated misuse at four other 
sites, and we are reviewing evidence at two more. So far, some 
20 employees have been implicated and 20 disciplinary actions 
have been taken, from reprimand to removal. While our work is 
not done, and those numbers will change, it is not the 
widespread corruption and fraud pitched to veterans and the 
American people. But as we see it, if one veteran is not well 
served, we own it and we will work to fix it.
    The IG still owes us the remaining reports. We appreciate 
their work, but we cannot let issues languish unresolved while 
waiting for protracted IG or Department of Justice 
investigations for months and sometimes even years. Our past 
practice has been to wait for these investigations to be 
complete. We are done waiting. Where we can collect relevant 
evidence more quickly and effectively with VA resources, we 
will do so. Then where evidence warrants disciplinary action, 
we will take action. If new evidence warranting additional 
action is presented later, we will take additional action. 
Where necessary, employees under investigation will be detailed 
to other duties, not routinely placed on administrative leave. 
Administrative leave will be reserved on a by exception basis 
set for only those extreme circumstances.
    Let me shift to the recent IG report on relocation, which 
has garnered widespread attention. We agree with many of the 
process related findings and we have already made changes to 
address those issues. What is disturbing and indicative of the 
atmosphere in which we now operate is the gulf between the 
rhetoric in the IG report and the actual evidence. In the most 
important finding, the report concludes that two executives 
were coerced to relocate. The fact is that both executives 
testified under oath repeatedly, 16 times in one instance, that 
they initiated talks leading to relocation. Neither provided 
any testimony consistent with the finding of coercion. The 
report in the Associated Press release emphasized criminal 
referrals to the Department of Justice. Yet as I have reviewed 
the evidence as collected by the IG, it does not support one 
violation of law, not one violation of rule, not even one 
violation of regulation related to relocation expenses.
    The easy option for me would have been to propose removal. 
That is what everybody wanted. I did not come to VA to do the 
easy thing, I came here to do the right thing. I did not find 
that the evidence supported an ethical violation. If I had, I 
would have removed the two executives. I did find that evidence 
supported a failure in judgment and therefore my decision was 
to propose demotion from the senior executive service, 
including a substantial reduction in pay. Rumor mills may have 
reported that we are negotiating some sort of settlement, not 
true. The fact is that we withdrew the demotion action because 
of our administrative error and we have already reinstated the 
action. We want to make sure that all actions, including these, 
survive appeal.
    I will close with a very short story. Last Thursday at our 
Denver Medical Center's mental health clinic, a veteran took 
Nurse Practitioner Kathy Rittenhouse hostage. Armed with a 
loaded pistol and two boxes of ammunition, the veteran's stated 
purpose was to be killed by police, suicide by cop. Evidenced 
and highly trained, Kathy calmed the veteran, persuaded him to 
let her make a phone call. When VA Police Officer Greg Crenshaw 
arrived, Greg persuaded the veteran to take him as the hostage 
to protect Kathy. In taking Kathy's place, Greg disarmed the 
veteran and resolved the crisis without any physical harm to 
anyone. The whole process took 13 minutes.
    I should mention that the vast majority of our police 
officers are veterans themselves, and they all are specifically 
trained to de-escalate volatile situations. It would have been 
very easy for Kathy and Greg to wait for the SWAT team and the 
hostage negotiators that were already on their way. But they 
did not. They acted based on their commitment to care for 
veterans, their desire to do the right thing, and their 
considerable training. And in doing so I believe they saved 
lives.
    A quick postscript, after the crisis, the team got together 
and insisted that this veteran not be sent somewhere else for 
his inpatient mental health care. They want to take care of him 
there.
    These are the kind of people that are being vilified day in 
and day out in broad brush strokes about VA employees. So for 
employees like Kathy and Greg, as well as for our veterans, we 
will continue to approach discipline squarely with a single 
objective in mind, to do what is right and in the process 
restore veterans' confidence in VA. We will not hesitate to 
take corrective action when warranted and available evidence 
supports it. But we will not administer punishment based on IG 
opinions, referrals to the Department of Justice, recycled and 
embellished media accounts, or external pressure. It is simply 
not right and it is not in the best interest of the veterans we 
serve.
    We look forward to your questions.

    [The prepared statement of Sloan Gibson appears in the 
Appendix]

    The Chairman. Thank you, Mr. Gibson. I think your statement 
is pretty dang inconsistent. Not a single Member of this 
Committee would ever say something about disciplining people 
like Kathy or Greg. I appreciate you bringing that to our 
attention, but to imply that we have is disingenuous and you 
know that.
    My statement this morning is based on the written statement 
that was sent ahead of time to us from VA, which is vastly 
different than what Mr. Gibson just laid out. So I hope you 
will all avail yourself to the written statement that was 
submitted for the record and is out for everybody to read on 
the table outside.
    I want to start by saying that I believe many of the 
elements in your written statement reflect a passive criticism 
of our efforts and the calls for change which have been made by 
this Committee, this Congress, and in fact many of the veterans 
service organizations that you so highly praise, and whose work 
we appreciate everyday.
    We are all educated enough to know what the definition of 
accountability is. You and the Secretary have now decided to 
change that definition. You say that we have changed it, but in 
fact, I do not think we need to be educated on what that word 
means as you did in your written statement. Holding somebody 
accountable is for their actions, actions that they are liable 
for and should have to transparently answer for. And it is not 
simply about being transparent about your goals and how to 
achieve them, as you stated in your testimony. According to 
Merriam-Webster's Dictionary, accountability means an 
obligation or a willingness to accept responsibility or to 
account for one's actions. Quite honestly, I think the tone of 
your written statement proves why we are so disappointed with 
the lack of accountability at the Department of Veterans 
Affairs because it illustrates that the department and its 
senior officials still refuse to take responsibility for the 
corrosive culture that is throughout the agency.
    In fact if you look at the Google definition of 
accountability as it is used in a sentence, it says, quote, 
``their lack of accountability has corroded public respect,'' 
end quote. If you substituted the words ``the Department of 
Veterans Affairs'' for the word ``their,'' it would be 100 
percent correct today. The Department of Veterans Affairs' lack 
of accountability has corroded public respect.
    As evidenced by VA's senior leaders' unwillingness to 
aggressively root out that corrosion you continue to blame this 
Congress and the media, for undue pressure for VA's problems in 
applying appropriate disciplinary measures. You even blame your 
own IG. For, and I quote from your statement, quote, 
``unfounded rhetoric that creates an unfounded expectation 
which does a distinct disservice to taxpayers and to 
veterans,'' end quote. Obviously to this day there appears to 
be no real acceptance of responsibility for VA's continued and 
pervasive failure to seriously discipline its employees and it 
seems as if there is no effort to change it. Words and actions 
matter.
    Neither I nor anybody on this Committee has ever said that 
accountability is only achieved through firing people. You have 
alluded to that in both your written statement and your verbal 
statement. We have instead always believed that the 
disciplinary actions taken against employees should be 
commensurate with the actions that warranted them, and that is 
something that is consistently lacking at the department. You 
stated in your written testimony that we need to, quote, 
``permit you to carry out the executive branch's responsibility 
of proposing and deciding employee discipline independently,'' 
end quote. So let us take a look at your track record of 
independently proposing and deciding employee discipline.
    In Alexandria, Louisiana a VA nursing assistant is charged 
with manslaughter in the death of a 70-year-old VA patient. VA 
officials originally deemed the death accidental. But a local 
coroner's efforts helped bring about legal charges. According 
to VA, the employee in question has been on paid leave since 
December of 2013 and continues to be on paid leave to this day.
    At the heart of VA's delays in care scandal in Phoenix no 
employees have been successfully disciplined for wait time 
manipulation. Even in the case of Sharon Helman, the former 
director of the Phoenix VA Medical Center, the VA found a way 
to botch her removal after the Merit Systems Protection Board 
determined that VA did not even attempt to, and I quote, 
``connect the dots of fault,'' end quote, to Ms. Helman 
regarding the wait time issues. If VA had not lucked out and 
stumbled across Ms. Helman's unethical behavior of accepting 
inappropriate gifts, she would still be more than likely 
working at the department firmly entrenched in the bureaucracy 
and on the payroll of the American taxpayer. Further, two 
senior managers who were also central figures there have been 
on paid leave since May of 2014.
    In Denver, the construction of a VA hospital was more than 
$1 billion over budget, and to this Committee's knowledge, VA 
has not disciplined a single employee in conjunction with this 
monumental failure. Instead, you rewarded those that were 
charged with overseeing the project with tens of thousands of 
dollars in performance bonuses. VA has completed an 
investigation into this matter but it is withholding the 
results from this Committee despite our repeated attempts to 
get the information.
    And at the Martinsburg, West Virginia VA Medical Center the 
department refused to discipline appropriately an employee who 
was convicted of dealing heroin off campus. These examples of 
VA's lack of accountability demonstrate the importance of 
hearings just like this one. As Ms. Brown says, let me be 
clear; the constitutional role of Congress and this Committee 
is to conduct oversight of the executive branch and your 
department. And we will ask the questions and hold the 
necessary hearings to try to keep the department in check. That 
is basic government 101 and I am starting to believe that some 
of the senior leaders at VA missed that day in school. If we as 
Members of this Committee just sit idly by and do not hold 
hearings until it is convenient for the department, or do not 
request information that we need when we need it, or do not 
investigate your facilities, then we would not be fulfilling 
our constitutional role. And surely that is not what you are 
asking us to do.
    I believe that the Secretary and yourself both came into 
the roles that you currently occupy with the will to make real 
change and that you want to provide high quality care and 
services to our veterans and I have always said, always said, 
that I believe the majority of people that work at the 
Department of Veterans Affairs share the same commitment. But 
the pervasive lack of real accountability hinders these efforts 
and is quite frankly a slap in the face to each of these 
employees' face. This has got to change. It gets tiresome to 
constantly be told by you and other VA leaders that things are 
changing for the better and that you are committed to 
sustainable accountability, but then to witness otherwise.
    The department publicly continues to tout inflated numbers 
of those it has held accountable, but then those numbers do not 
square with the truth. It is even more disappointing to receive 
push back from the administration when this Committee and 
Congress as a whole tries to move legislation to cut through 
the bureaucratic red tape and instill true accountability. In 
short, the defense of the status quo is unacceptable.
    Just last week, VA once again showed its inability to hold 
bureaucrats accountable when it announced a decision to rescind 
the demotions of Kimberly Graves and Diana Rubens, two 
individuals who have been at the center of this Committee's 
attention for several months. It spurred the outrage of several 
veterans organizations and the general public following the IG 
report that found that they used their positions of authority 
to move into positions of lower responsibilities while 
maintaining their high pay, which allegedly enabled them to 
financially benefit for more than $400,000 in taxpayer moving 
expenses.
    According to VA, one of the five binders containing 
evidence to support their demotions was not given to either 
individual when they received their proposed notice of 
demotion, thereby not giving them a fair opportunity to respond 
to the information that was documented in this particular 
binder. I find it ironic, Mr. Secretary, that you personally 
sent me two letters admonishing me for potentially damaging the 
cases against Ms. Graves and Ms. Rubens if I proceeded with 
hearings in October, yet in the end, their cases were damaged 
due to the inability of the VA's lawyers to simply keep track 
of critical evidence. I was already sorely disappointed with 
your decision, but I am dumbfounded that with such a high 
profile case which included a criminal referral to the 
Department of Justice that VA still found a way to botch its 
decision to merely demote them.
    Frankly this ineptness clearly demonstrates that VA cannot 
even slap a wrist without missing the wrist. And it underscores 
the department's overall lack of focus on properly disciplining 
employees. What is even more infuriating about the whole 
situation is that under the Choice Act authority, VA was not 
required to provide the notice to an employee and the 
department set this process up on its own, yet sadly lawyers, 
the 700 lawyers' inability to properly execute their own self-
created policies has left the American public disappointed. Now 
we must wait as you attempt to move through the disciplinary 
process for a second time. And I wish I could say that it does 
not worry me how this whole spectacle will affect Rubens' and 
Graves' impending appeals to the MSPB, but that is not the 
case. I just hope that VA's lawyers find a way not to lose 
another binder in the process.
    VA's decision to not even attempt to recoup the money 
inappropriately spent on moving Ms. Rubens and Ms. Graves is 
astonishing to me. This money that your IG had recommended that 
you attempt to recoup, and money I believe they took from the 
American taxpayers inappropriately. It is simple. The 
relocation benefits were the fruit of Ms. Rubens' and Ms. 
Graves' inappropriate behavior as determined by you, Mr. 
Secretary. VA's decisions not to recoup these funds is akin to 
letting a bank robber off the hook with a mere slap on the 
wrist while allowing him to keep the money.
    It is concerning as well that your testimony today seems to 
completely disregard the conclusions made by the IG and instead 
states that Ms. Rubens and Ms. Graves merely exercised, and I 
quote, ``less than sound judgment,'' end quote. I would argue 
that two high level senior managers forcing their subordinates 
to move to other locations so they could then obtain these 
positions for themselves, and causing the American taxpayers to 
foot the bill for their exorbitantly priced moves, illustrates 
a little more than, quote, ``less than sound judgment,'' end 
quote. I know many of the veterans we represent would agree.
    In addition to discussing last Thursday's announcement 
regarding Ms. Graves and Ms. Rubens, this hearing is an 
opportunity for the Committee to end this year with a review of 
VA's legal ability and self-willingness to hold its employees 
accountable. It will also allow for us to discuss a variety of 
outstanding requests made by Members of this Committee. I sent 
a letter to the Secretary in October seeking information 
regarding a variety of instances reflecting VA's inability or 
unwillingness to instill real accountability. I provided a copy 
of the letter in each of the Members' packets for you to 
review. The letter looks at several circumstances including 
instances of whistleblower retaliations at an assortment of 
locations, unconscionable settlement agreements with several VA 
employees resulting in huge payouts by the department, 
investigations into the behavior of several senior VA central 
office executives, the Denver hospital construction project, 
and the remaining concerns with Phoenix. To date, the Secretary 
has not responded to my letter.
    As I said earlier, it is disheartening that Secretary 
McDonald continues to tout numbers of accountability that quite 
simply are not true. In February during an interview with Meet 
the Press, he claimed that 60 employees were fired for 
manipulating wait times, yet according to the Washington Post 
that was completely false. Earlier this year at a National 
Press Club event he announced 300 people had been proposed for 
some type of disciplinary action for scheduling manipulation, 
but at the time it was only 27. Additionally, VA's own staff 
has told Committee staff that several individuals identified as 
involved in patient wait time manipulation on the adverse 
action lists that VA provides to this Committee each week 
actually had nothing to do with wait time manipulation 
whatsoever. As the old saying goes, you cannot fix what you do 
not measure. And if the VA cannot even get its own data right 
about patient wait time manipulation, how will true 
accountability ever be achieved?
    Congress can provide VA tool after tool and hold hearing 
after hearing, but without the will of the VA senior leadership 
to make real changes across the department, the corrupt culture 
will continue. Veterans and their families, and the majority of 
VA's employees who work hard every single day, deserve to be 
able to trust our VA. But that trust obviously needs to be 
earned.
    With that, I yield to Ms. Brown for her opening comments.

       OPENING STATEMENT OF CORRINE BROWN, RANKING MEMBER

    Ms. Brown. Thank you, Mr. Chairman, and to the Committee, 
and to you, Mr. Secretary, and to the veterans that are 
watching this proceedings.
    Let me just say before I begin that I am a little 
uncomfortable with the quorum of this Committee and of the 
House at some times. In fact, I mentioned it to the Clerk. And 
I wanted to note when I came here, I have been on this 
Committee for 23 years. And for the use of profanity was just 
not something that was done in the Congress. This Congress, and 
this Committee in particular that I have been on for 23 years, 
have been very bipartisan. And I do not know what has happened 
to this Congress and what has happened to the Members.
    But let me just say that we are all here to serve the 
veterans and the VA serves over 50 million outpatients every 
year and we need to keep that in perspective as we do our due 
diligence. And we have attorneys on this Committee, and 
doctors, and I am sure you all will have all of the right 
questions that you want to ask.
    But I am concerned, and you mentioned something, because I 
am concerned when you mentioned that story in the end about 
security. I want to know how that veteran got on that facility 
with a gun and with bullets that could have caused a disaster 
there. And I am concerned why that veteran is in outpatient and 
not inpatient facility. So I hope at the end of your testimony 
that you can answer that question for me, because I am 
concerned about the security at the facilities.
    As we drill down on these issues I am most concerned about 
the veterans getting the care that they need. And also you 
mentioned in your report, and I asked the question about the 
year's end, we are supposed to be drilling down on homeless 
veterans. You mention it in your report. I want to know where 
we are. I want the Members to know there are so many cities 
that have signed up. I want us to know whether our cities have 
signed up to participate, our mayors and our communities, to 
help with the homelessness as far as the veterans are 
concerned.
    We have also talked about having a health care day at the 
different facilities where we as Members can go in and have, 
bring in all of the people that have not had an appointment so 
they can get those appointments. I want to know about the 
health care for veterans.
    Yes, I do know that we need to talk about accountability 
and that we need to make sure that you all, the perception, and 
this Congress and we contribute to the perception that there is 
widespread problems in the VA. I need, we need to assure the 
veteran that that is not the case. I do know when I visit my 
facilities, whether it is in Orlando or Jacksonville or 
Gainesville, once they get into the VA they are happy with the 
services. And I want everybody in this country to have that 
kind of experience. And so I am going to just yield my time to 
you to answer those questions about the security at the VA 
facility. I am interested in knowing how somebody got in there 
with a gun and bullets. Do we not have the security there to 
protect our employees? Can you answer that question for me?

    [The prepared statement of Corrine Brown appears in the 
Appendix]

    The Chairman. Ms. Brown, we will allow the Secretary to 
answer it in the normal questions. We cannot allow him to 
answer that question during your opening statement time.
    Ms. Brown. Oh, I yield back the--
    The Chairman. Okay, the time has been yielded back. I will 
begin the questioning at this point with the Secretary.
    Who discovered the fifth binder of evidence that was not 
provided to Ms. Rubens and Ms. Graves?
    Ms. Flanz. Certainly, I would be happy to explain what 
happened. The--
    The Chairman. No, I just want to know who discovered the 
binder was missing.
    Ms. Flanz. The legal team, it is a group of four people.
    The Chairman. So you are saying VA discovered it?
    Ms. Flanz. We discovered it upon receiving the electronic 
copy of the two employees' appeals, yes.
    The Chairman. So in other words the employees that were 
appealing, their attorneys found it?
    Ms. Flanz. No. They filed their appeals as they are 
required to and they included in their appeals all of the 
evidence they had received. Upon reviewing those, we realized 
that there, some of the materials were not included.
    The Chairman. Sloan, do you agree with that?
    Mr. Gibson. It is, I am relying on Meghan for the details 
of what happened there.
    The Chairman. Okay. Because that is not what this Committee 
has been told. But I will take your testimony. And can you tell 
me what you think the legal ramifications will be with having 
to rescind their demotions, and begin the process again?
    Ms. Flanz. Certainly, sir. The point of rescinding and 
reissuing is to cure what would otherwise be a due process 
violation. So the rescission and provision of the additional 
evidence should cure the problem entirely.
    The Chairman. Sloan, in your written statement you said, in 
regards to Ms. Rubens' and Ms. Graves' cases that and I quote, 
``there were gaps between the rhetoric in the OIG report and 
the underlying evidence,'' end quote.
    Mr. Gibson. Yes, sir.
    The Chairman. Explain to us about that gap, how do you see 
it so differently from the way the Inspector General sees it?
    Mr. Gibson. I cannot explain the Inspector General's 
position. I would simply say that, and Meghan will recall the 
occasion, as I sat down over a weekend and reviewed all the 
evidence in the matter, I came back in the next morning on 
Monday morning and my question was, I do not understand how 
they have reached the conclusion that they have reached based 
upon this particular evidence. What am I missing here?
    The Chairman. Then how could they have made a referral to 
the Department of Justice? I mean, did the Inspector General's 
Office just mess it up that bad?
    Mr. Gibson. It is incomprehensible to me that they made 
that referral. I find no basis and our attorneys have found no 
basis for that referral.
    The Chairman. And I do not want to dwell on that, but you 
have also said that you do not have the ability to recoup, 
whether it is Ms. Graves or Ms. Rubens or anybody else, you 
have no way to go in and recoup any of their relocation 
expenses, can you cite the statutory reason that you cannot go 
back and get that money?
    Mr. Gibson. I am going to lean on Meghan here again.
    Ms. Flanz. Absolutely. The process for recouping any 
improper payment in, that is made by the government, is through 
the Improper Payments Elimination and Recovery Act of 2010. It 
is Public Law 111-204, Section 2F. When it comes to employees, 
a debt may be owed and collected if the employee receives an 
improper payment. An improper payment is any payment that 
should not have been made or was made in an incorrect amount. 
The legal determination of our team is that with respect to 
certain payments that were made to Ms. Rubens in the context of 
her move, her temporary quarters subsistence expenses, there 
were some improper payments for alcoholic beverages and for--
    The Chairman. I apologize. I appreciate that. The Committee 
is well aware. So it is your testimony that the other payments 
that were made to Ms. Graves and Ms. Rubens were appropriate 
payments?
    Ms. Flanz. They were duly authorized under the law, yes.
    The Chairman. They were appropriate payments?
    Ms. Flanz. They were approved by the senior leadership 
based on their belief that these individuals should make those 
moves, yes.
    The Chairman. Can you give us an update about Ms. Filipov 
and Mr. Hodge, who have been on paid leave since June? I am 
hearing a rumor, and you can dispel that rumor if you choose to 
do so today, that there has been a delay in a final decision 
because there were procedural mistakes there as well. Is that 
true or not?
    Ms. Flanz. Those actions are being taken by the Veterans 
Benefits Administration, not by my office. I do not have 
specific information with respect to their status.
    The Chairman. Sloan?
    Mr. Gibson. I am not aware of the status on those two 
either, but we will provide you an update.
    The Chairman. Okay. When? This afternoon?
    Mr. Gibson. Today is Wednesday, before the end of the week?
    The Chairman. Yes? Okay. According to media reports, AFGE 
officials at VA central office completed and delivered a report 
to the Secretary alleging the misconduct of a number of VA 
executives. Has any action been taken with regards to the 
report? And can the department provide us an unredacted copy of 
the report?
    Mr. Gibson. Every one of the allegations raised in the AFGE 
correspondence have been investigated. There is a report that 
has been delivered, I think it is dated the third of December. 
And based on the earlier request we are prepared to provide 
unredacted versions of both the AFGE letter as well as the 
report.
    The Chairman. Thank you. Ms. Brown?
    Ms. Brown. Thank you. Mr. Secretary, would you please 
answer the question, how many veterans do you all serve per 
year? We had major discussions about the wait time. What is the 
status about the wait times? And also, what is the approval 
rating of the veterans once they get into the system? And then 
we will go on to the incident that you mentioned.
    Mr. Gibson. Yes, ma'am. There are, we are seeing 6.5 
million to 7 million unique patients, individual patients, over 
the course of a year. Inside VA in 2015, I am going from memory 
here, they completed somewhere in the neighborhood of 56 
million inpatient appointments. There were roughly another 20 
million--excuse me, I said inpatient, outpatient appointments.
    Ms. Brown. Fifty-six million?
    Mr. Gibson. Fifty-six million, yes, ma'am.
    Ms. Brown. Outpatient appointments?
    Mr. Gibson. Yes, ma'am, inside VA. And another roughly 20 
million that are completed in the community over the course of 
the year.
    Ms. Brown. Okay, with our stakeholders, our partners?
    Mr. Gibson. Yes, ma'am.
    Ms. Brown. Mm-hmm.
    Mr. Gibson. And so the second question was wait times.
    Ms. Brown. Yes?
    Mr. Gibson. You may recall in earlier testimony we talked 
about the effort that we undertook over the course of more than 
a year, and still are undertaking, to improve access to care. 
In that roughly 12-month period of time following the outbreak 
on the issue, we completed both inside and outside VA about 7 
million more appointments, roughly a ten percent increase in 
appointments, a very material increase in access to care. 
Unfortunately, or fortunately depending on the perspective, 
over that same period of time more veterans came to us for more 
of their care. So what we saw is veterans waiting more than 30 
days back in May or June last year. That number has actually 
increased over the intervening period of time because more 
veterans are turning to us for care as we improve access to 
care.
    Ms. Brown. Do you have the resources you need to serve 
those additional veterans?
    Mr. Gibson. My expectation, what we have been doing, and 
you asked about the health day--
    Ms. Brown. Yes.
    Mr. Gibson [continued]. --and I know you are aware of the 
stand down that we had a couple of weeks ago all across VA, the 
focus there was on ensuring that we are providing care that is 
needed urgently to veterans, and that they are getting that 
urgent care timely. I would tell you that is more and more of a 
focus on Dr. David Shulkin's leadership as Under Secretary for 
Health. I would tell you, I do not expect the wait times to 
come down. I think as we improve the quality of health care, as 
we improve access to care, as we improve the veteran 
experience, we are going to find more veterans coming to us for 
more care. And as long as there are economic incentives for 
veterans where they can come to VA for care at a lower out of 
pocket cost, we are going to find veterans coming to us for 
care.
    Ms. Brown. Now would you go and talk about that security? 
Because that gun really disturbed me.
    Mr. Gibson. Yes, ma'am.
    Ms. Brown. And I want to know how someone could get in the 
facility. Do we not have at the entrance point of the kind of 
security that we have here in Congress?
    Mr. Gibson. Absolutely not, ma'am. Not in any way, shape or 
form. We have enhanced security at two or three locations. They 
are in large metropolitan areas principally. If you look at the 
majority of VA facilities, they were built decades, in fact, 
the VA Medical Center in Denver is 50 years old, 60 years old, 
something like that. There are multiple points of ingress and 
egress. The ability to secure every one of those, the ability 
to search and run every single veteran that comes in for care 
through those facilities is, would be an insurmountable 
obstacle to us being able to deliver the care that we need and 
the experience that veterans expect. So no, we do not have 
that.
    And you will recall several months ago we actually had a 
physician assassinated in our El Paso Medical Center. We 
continue to work to refine and strengthen our security posture 
to ensure that we are protecting not only employees but other 
veterans. But our ability to put in place a moat, if you will, 
a security moat around the VA is really limited by our need to 
provide the care for veterans that we need to provide.
    Ms. Brown. Well I am just wanting to know, I mean, we have 
hardened as far as courthouses and this facility. I would like 
to know what it is that we need to do to protect the veterans 
at the facilities. I think this is major, given where we are.
    Mr. Gibson. Yes, ma'am. Well, and we, as we build new 
facilities, we build hardened facilities as well, which 
unfortunately adds to the cost of those facilities. We also 
build in more limited means of access, ingress and egress, so 
that it is easier to secure premises. But when we are operating 
with facilities that are on average 50 years old, it is very 
difficult for us to provide that kind of absolute security.
    Ms. Brown. Thank you.
    Mr. Gibson. Yes, ma'am.
    Ms. Brown. I think this is a major issue that we need to, 
as a Congress, need to address. I yield back the balance of my 
time.
    The Chairman. Thank you. You mentioned the 50-year-old 
Denver facility not being constructed for safety reasons with 
multiple ingress and egress. Is the new hospital constructed to 
where you do not have an ingress and egress problem?
    Mr. Gibson. I think it is less severe than the issue in the 
old Denver hospital. But it will still be an issue.
    The Chairman. Okay. Mr. Bilirakis?
    Mr. Bilirakis. Thank you very much. Welcome, Secretary 
Gibson.
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis. Back home I am still hearing employees that 
they fear retaliation. How do you ensure moving forward that 
these employees are not getting retaliated for wanting to do 
the right thing?
    Mr. Gibson. That is a great question.
    Mr. Bilirakis. With regard to whistleblowing?
    Mr. Gibson. Understand. Understand. We have come, I 
believe, a long way over the previous year in terms of dealing 
with the issue around whistleblowers and whistleblower 
retaliation. I mentioned earlier that the extent of the travels 
that Bob and I have made to VA facilities, we speak to 
employees at every single one of those facilities. We meet with 
whistleblowers at those facilities. In fact, I will be in 
Atlanta on Friday meeting with one of the principal 
whistleblowers down there as well as our staff. We make it 
clear consistently that retaliation against a whistleblower 
will not be tolerated and in fact we model behavior that says 
in fact what we are looking for are employees that will raise 
their hands and help us find ways to deliver better care for 
veterans. The administration of discipline as part of 
leadership is something that happens all over the organization. 
And so as we change the culture of the organization, we will 
reset that kind of benchmark for what represents appropriate 
disciplinary action as it relates to any misconduct whatsoever, 
including whistleblower retaliation.
    Mr. Bilirakis. Let me follow-up on this subject.
    Mr. Gibson. Sure.
    Mr. Bilirakis. In September of this year, the Office of 
Special Counsel sent President Obama a letter which highlighted 
several high profile whistleblower cases. You are familiar with 
that letter, is that correct?
    Mr. Gibson. I am familiar with it, yes sir.
    Mr. Bilirakis. Okay. What action has VA taken in response 
to this particular letter? And what additional legislative 
authority do you need to better protect whistleblowers and 
discipline those who retaliate against them?
    Mr. Gibson. In fact, I met with Carolyn Lerner, the Special 
Counsel. We discussed the letter at length and the specific 
issues in detail. There are a couple of instances where their 
findings and our findings have not matched up and we have asked 
that our respective teams reconcile those. There are other 
instances where we have, as you may know, implemented expedited 
processes where a whistleblower who has been retaliated against 
is made whole for that retaliation. We do that in concert 
working very closely with the Office of Special Counsel. As we 
undertake to pursue the manager, the responsible manager for 
the retaliation, we are back to the evidentiary standards that 
we are required to adhere to in order to be able to enforce 
that accountability. And I would tell you that the evidentiary 
standards for the action that we take to restore a 
whistleblower and the evidentiary standard that we take to 
impose discipline are two different standards. And that is part 
of the conversation that we have had with the Office of Special 
Counsel as it relates to those specific cases.
    Mr. Bilirakis. Okay, I would like for you to follow-up, 
Sloan, on this issue--
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis [continued]. --with regard to the letter.
    Mr. Gibson. Okay, sir.
    Mr. Bilirakis. And any recommendations you have and any 
possible legislation that we can actually present to--
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis [continued]. --and get passed.
    Mr. Gibson. Yes, sir.
    Mr. Bilirakis. Okay. What type of message do you believe 
you are sending. I know we have been over this, but it is so 
very important, what type of message do you believe you are 
sending to the VBA employees when they read that the VA OIG's 
recommendations, then see, they read the recommendations, then 
see the relatively light proposed punishment for Mrs. Rubens 
and Mrs. Graves? Again, how will their subordinates ever take 
them seriously? Please answer that question directly.
    Mr. Gibson. Well I, you know, as I mentioned in my oral 
testimony, which obviously rubbed folks the wrong way, I 
believe what oftentimes happens today is there is an allegation 
made, whether substantiated or not. And what happens is 
investigations get launched and media gets contacted and there 
are stories. And at that point the individual becomes guilty 
until proven innocent. And I hope what the employees of VBA, 
the message that they will get, is that their leadership is 
committed to doing the right thing. That we are committed to 
holding senior leaders accountable for their behavior, but that 
we are also committed to doing what is supported by the 
evidence.
    Mr. Bilirakis. Well in your opinion, have Mrs. Rubens and 
Ms. Graves, do you think they have lost credibility within the 
VA?
    Mr. Gibson. That is unavoidable. How do you go through all 
of--
    Mr. Bilirakis. Well how--
    Mr. Gibson [continued]. --the public airing of the IG 
report and the reactions to the IG report and not lose face, 
not lose standing? It is impossible. It would be foolish to 
represent that. But I am not going to recommend, I am not going 
to propose a disciplinary action that is based upon a media 
coverage or an opinion that is expressed in an IG report if it 
is not supported by the evidence. That is just doing the right 
thing. It is that simple. And honestly, I meant what I said. 
When I went through this particular case, I knew that that 
proposed decision was not going to sit well with virtually 
everybody. And I own that. That is on me. But at least I can 
look at the mirror and be convinced that I made the right 
decision.
    I look forward, once this case is concluded and the appeal 
process has run its course, I look forward to meeting with any 
Member of this Committee to discuss in detail the 
substantiation of my decision and providing to any Member of 
this Committee the full body of evidence, unredacted, so that 
they can form their own opinion as to whether or not I made a 
decision that was appropriate.
    Mr. Bilirakis. I, I--
    Mr. Gibson. I own that. That is part of the accountability 
of me coming here.
    Mr. Bilirakis. The bottom line is I am concerned about our 
veterans.
    Mr. Gibson. Yes, sir. Yes, sir.
    Mr. Bilirakis. What type of service they receive.
    Mr. Gibson. And I am concerned about that, too. Yes, sir.
    Mr. Bilirakis. Well thank you very much. I yield back, Mr. 
Chairman.
    The Chairman. Mr. Secretary, do you have any evidence that 
we do not have?
    Mr. Gibson. Sir, I do not know what evidence you have.
    The Chairman. We got it from your office so I would think--
    Mr. Gibson. I believe, I am told that what evidence you 
got, you got from the IG. I do not, I have no idea what the IG 
gave you.
    The Chairman. We have all the transcripts. And so will you 
give us the evidence at the end of the process?
    Mr. Gibson. Absolutely, positively yes. Every single piece 
of evidence.
    The Chairman. How would you have evidence the IG would not 
have?
    Mr. Gibson. I am sorry?
    The Chairman. How would you have evidence that the IG would 
not have?
    Mr. Gibson. I do not think that we have evidence that the 
IG does not have.
    The Chairman. Okay, that is all.
    Mr. Gibson. I just do not know what they gave you.
    The Chairman. That is fine. I--
    Mr. Gibson. We are sort of back to the question of making 
sure that we got all the evidence. We will give you everything.
    The Chairman. I am sure the IG is much more transparent 
with us than you have been. Ms. Titus?
    Ms. Titus. Thank you, Mr. Chairman. Thank you for being 
here, Mr. Gibson.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. You said in your very opening statement that, 
you know, accountability and just about firing anyone. Several 
months ago, I made a similar comment in a hearing, saying that 
all we talk about is firing people. Some of our problem at the 
VA is hiring the right people in the first place. And I think 
we ought to put some more emphasis on that.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. And indeed I have been pleased to work with Dr. 
Wenstrup and Dr. Benishek to look at the hiring process and 
thank you for your good work on that.
    Do you have, just shifting gears a little, do you have any 
suggestions of what we can do to help at that end of the 
process as well as the problems that you are having at the 
firing end of the process?
    Mr. Gibson. On the hiring end, among the legislative 
priorities that we have set forth is a provision requesting 
that we deem medical center directors and VISN directors Title 
38 employees as opposed to Title 5 employees, which will 
provide us substantial additional flexibility to be able to 
attract the kind of talent that we want to attract and need to 
attract to fill those critical positions, yes ma'am.
    Ms. Titus. We had a round table the other day with some VA 
folks--
    Mr. Gibson. Yes, ma'am.
    Ms. Titus [continued]. --and then some representatives and 
the nurses association, and they were making just some 
bureaucratic suggestions of cleaning up the process, making it 
work, making the application simpler, quicker, more available. 
Are you all looking internally at some of those issues that you 
can do that we do not have to do, or might not be appropriate 
to do through legislation?
    Mr. Gibson. Absolutely, positively yes. We have identified 
underneath the MyVA structure 12 absolutely critical priorities 
that will be a focus over the coming 13 months. And one of 
those has to do with hiring practices, filling these key 
positions and streamlining the hiring practices. Particularly 
in VHA, we have an organization that does not operate like an 
integrated enterprise. We have talked about this before in 
here. And so you will find variances in hiring practices all 
over the organization--
    Ms. Titus. We heard that.
    Mr. Gibson [continued]. --people that are not taking 
advantage of the authorities that are available to them--
    Ms. Titus. Mm-hmm.
    Mr. Gibson [continued]. --people that are going through 
extra steps that are not necessary to go through. We have got 
to identify the streamlined best practice that gives us all the 
authority that we possibly can exercise and then standardize 
that approach to hiring all across the department.
    Ms. Titus. Well would you keep us apprised of that--
    Mr. Gibson. Yes, ma'am.
    Ms. Titus [continued]. --as it goes? And the staff for the 
three of us as we--
    Mr. Gibson. Yes, ma'am.
    Ms. Titus [continued]. --work on kind of a bipartisan bill? 
Because we do not want to wait a year and then get a report and 
then have to start all over.
    Mr. Gibson. No--
    Ms. Titus. It would be nice if we could kind of work this 
together as we go.
    Mr. Gibson. We would love to do that.
    Ms. Titus. All right. Thank you very much.
    Ms. Brown. Would the gentle lady yield to me for a 
question?
    Ms. Titus. Yes. Yes, I will yield.
    Ms. Brown. In our round table discussion, one of the things 
that is a major problem is how long it takes for the VA to hire 
someone. And as we develop expediting the process, I hope we 
include in there, because basically, by the time VA hires 
someone, some other agency has taken that person.
    Mr. Gibson. You are absolutely right, ma'am. And that is a 
critical component of what we have to do. You are absolutely 
right.
    Ms. Titus. Taking my time back, yes, that was one of the 
things that we mentioned about speeding up the process.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. And making it simpler.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. So that, I would appreciate working with you on 
that.
    Mr. Gibson. Yes, ma'am.
    Ms. Titus. Thank you.
    The Chairman. Dr. Roe?
    Mr. Roe. I thank the Chairman, and thank you, Mr. 
Secretary, for being here. And you are correct, I did take a 
little offense to some of what you said.
    Mr. Gibson. Yes, sir.
    Mr. Roe. And I can assure you that if some of these people 
had been working in your shop when you were in the private 
sector, or in my shop when I was in the private sector, they 
would have been fired. And you cannot have 320,000 employees 
and everybody is doing a great job. That is just too big of an 
organization. And I understand that and you understand that.
    Mr. Gibson. Yes, sir.
    Mr. Roe. I think probably you will find most of us 
physicians on the panel up here are more interested in the 
access and the quality of care that veterans are getting. Let 
me just read you a text I got here nine minutes before this 
hearing started. Phil, sorry to bother you but we are doing--
this is a general surgeon in Johnson City, Tennessee--we are 
doing VA critically ill patients that spill over when they are 
full. Unfortunately we are having trouble getting paid. Is 
there anything your staff can do to help us? This goes on, I 
get one of these once a week. And so everything is not good 
right now with the VA. There are a lot of issues and problems. 
And I think that is the problem.
    And the other thing that I think the VA could do tomorrow 
to help access and quality, I spent four hours at the VA two 
weeks ago, before Thanksgiving. I went down and walked through 
the electronic health record, looked at that, and talked to one 
of my former, one of my friends who is an orthopaedic surgeon, 
formerly in private practice, now at the VA. I looked at how 
long it took him to see one patient, what he had to go through. 
So it is impossible to pick up with the current system that you 
have their productivity. So as long as that system stays in 
place, my friend cannot see any more patients. He just cannot 
do it. It took him 30 minutes to inject a rotator cuff. It 
would have taken him ten in his office. But it took 30. And 
with the electronic health record, and all the documentation, 
and all the stuff he had to do to put in the record, he just 
cannot do it. So you are going to have these waits. And then 
when you do that, we are going to be on you, and you are going 
to have people so that the data does not look bad manipulate 
those times. That is exactly what has happened. And that is why 
we are sitting here and been having this conversation.
    So one of the things I would recommend you do is take 
people like myself and just make me a certified VA provider 
that sees patients on the outside and then pay them so I do not 
get these texts where in a timely fashion like most, like 
Medicare does, they are very good at it. They do not pay you 
very much, but at least they get the money to you and you can 
count on that. And I think when a physician, and I happen to 
know this physician very well. He operated on my wife. He is a 
very fine physician. And VA will not pay him. So why would you 
expect him to continue to bail the VA out and you are going to 
just back downstream, do exactly what you are talking about. 
Veterans cannot get in.
    So anyway, I have said enough about that. You could certify 
me as a private practitioner, as a certified VA provider, and 
we will provide that care if you would just pay us. That is not 
a difficult thing to do. And knock off your long waits right 
now, if you would just let the private sector help you out. And 
you would not have these hiring things.
    And Ms. Brown is absolutely right, it takes forever. And 
most of the, many of the good people get hired away by somebody 
else by the time the VA has made a decision to actually have 
them work. So the way you can fix that, if you cannot fix the 
hiring process, just take providers like myself, put a little 
thing at the bottom of my shingle that says Dr. Roe, certified 
VA provider. I will see the patients, get the information right 
back over there in a timely fashion, take care of them. If the 
veteran wants to do that. And many veterans do. Many veterans 
would like to have their care in the communities. So those are 
some suggestions I would make. I do not think everything is 
fine in Lake Woebegone, personally.
    Mr. Gibson. It is not.
    Mr. Roe. You have got lots of problems.
    Mr. Gibson. We do.
    Mr. Roe. And they are, I mean, and so to come up and accuse 
the Congress of, we did not create the problem. We are trying 
to find out what they are and resolve the problems because it 
is affecting veterans. I think that is our motivation. So I 
will finish with that. If you have any comments, I will be glad 
to hear them.
    Mr. Gibson. Well as I said, I think we are all after the 
same thing, better health care and benefit outcomes for 
veterans. Payment promptness has been a problem at VA for 
years. We have made great strides over the last probably nine 
to 12 months. But we still have a long way to go. And many of 
the changes that we are making there is moving us toward much 
more what the private sector practice looks like. We, I thought 
we talked about this three weeks ago at the last hearing as we 
were talking about payment processing.
    Sixty percent of our payments are still processed on paper 
and we are encouraging our providers to do that electronically 
so that we can accelerate that timeline.
    Mr. Roe. What do I tell my friend after I have had this 
hearing today? When is he going to get paid?
    Mr. Gibson. Please ask him, if you will email me his 
information, I will see that we are working on it today.
    Mr. Roe. Okay. Good. I will do that. Thank you.
    Mr. Gibson. Please.
    Mr. Roe. I yield back.
    Ms. Brown. Would the gentleman yield for me for a second? 
Was this physician prior approved before he saw the patient?
    Mr. Roe. Oh he is, I think so. This particular physician I 
know has worked with VA for years like Dr. Benishek did.
    Mr. Gibson. Yes, I am sure he would have been. To be doing 
surgery, yes. Absolutely, positively yes.
    Mr. Roe. And taking care of critically ill people.
    Ms. Brown. Well there should be no reason for slow pay.
    Mr. Gibson. That is exactly right. You are right.
    The Chairman. Miss Rice, you are recognized.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Gibson, your testimony included reference to training 
that the VA's Office of General Counsel and Office of 
Accountability Review received from the Office of Special 
Counsel regarding their ability to investigate whistleblower 
retaliation and also to hold those who retaliate against 
whistleblowers accountable.
    So just two questions regarding that. I know that you went 
into this a little bit with Mr. Bilirakis' questions. Some 
anecdotal evidence as to how this training has improved those 
two offices' operation, number one, and, number two, how do you 
implement these trainings at the level where it really matters, 
which is at the local level at an individual VA Medical Center 
or regional office.
    Mr. Gibson. If I may, I would like to ask Meghan to 
respond, because she was directly involved in that.
    Ms. Flanz. Thank you very much for the question.
    The goal was train the trainer training. We do have lawyers 
and human resource specialists all over the country who can be 
our arms and legs and mouths. So some folks from the Office of 
Accountability Review and some attorneys from the Office of 
General Counsel here in D.C. sat down with the Office of 
Special Counsel's head trainer, got ourselves trained, produced 
the curriculum that is then being cascaded out to all 
supervisors, is the goal, by the people who are on the ground 
with the supervisors in terms of HR specialists and lawyers in 
the field.
    Miss Rice. And that is how it gets down to the local level?
    Ms. Flanz. That is right.
    Miss Rice. So do you have a year-end compilation of the 
instances of the number of whistleblowers and any potential 
retaliation and, if there was retaliation, what was done vis-a-
vis both the whistleblower and the person who retaliated 
against them, could you compile that information?
    Ms. Flanz. We don't collect it on a rolled-up basis, but 
certainly can put out a data call to provide that information 
to you, yes.
    Miss Rice. I think that that would go a long way in terms 
of changing the culture of whistleblowers wanting to come 
forward, because they know that they are not going to be 
retaliated against and, if they are, there will be immediate 
accountability and punishment. And I think you can only do that 
by being able--I mean, you can't assume that someone in a VA in 
Texas knows about what happened to a retaliator in New York.
    Ms. Flanz. Absolutely. Yes, I agree.
    Miss Rice. So I would make that suggestion.
    Mr. Gibson, I don't recall if I have spoken directly to you 
about this, but I have asked for the Administrative 
Investigation Board report on the Denver construction project 
multiple times and that request has been repeatedly denied. 
Now, I understand that there is a review that is taking place, 
an evaluation as to whether or not there needs to be any 
administrative action taken against, you know, current 
personnel, but I don't understand--and maybe it is a legal 
impediment, but I don't understand why we, this Committee, 
can't see that, because when more money is needed for that 
project you come here and we, with a gun to our head, have to 
say yes. And this has been a big issue for me, no one has been 
held accountable for the cost overruns on that project.
    And so I want to know if there is any way that this 
Committee can see that report. And I don't see how that could 
possibly hinder what if any administrative action would be 
necessary to take against current personnel, if any.
    Mr. Gibson. The position that I had taken previously as it 
relates to disciplinary actions in Denver was that we would 
look at any employees that continue to be at VA and any 
appropriate discipline following the completion of the IG's 
report. The IG is still doing their investigation. Based upon 
the different approach that I have outlined in my testimony, I 
have instructed that we not wait any longer, that we go ahead 
and conclude any appropriate disciplinary actions as it relates 
to individuals that are still employed at VA. I directed that 
proposing and deciding officials be appointed, that we complete 
that timely. And as soon as we have done that process, I look 
forward to providing the unredacted AIB report to the 
Committee. So that we have gotten through just the decision 
process on non-SES employees, because the appeal process can 
take a very long, extended period of time. We feel like doing 
it immediately following the disciplinary decision is the 
appropriate time.
    And I would tell you, my expectation in the future is that 
we are able to provide that and information much more timely, 
because we are not going to wait months and months and months 
for an IG investigation to conclude.
    Miss Rice. Well, I guess we can look into why the IG's 
report is taking as long as it is. But when you come to this 
Committee and ask for people to--
    Mr. Gibson. Yes, ma'am.
    Miss Rice [continued]. --release, you know, a billion 
dollars for a project that we have absolutely no empirical data 
about why these costs overruns, why we are facing that, I think 
it might behoove the agency to make as much relevant 
information available to us as possible.
    Mr. Gibson. Yes. As we mentioned on a hearing some time 
back on this particular subject, having read all the evidence, 
I continue to believe that the most authoritative, 
comprehensive account of what went wrong is the decision that 
was rendered by the court of the Civilian Board of Contract 
Appeal, CBCA, in which the decision was rendered last December 
and which is readily available, I would be glad to get a copy. 
That is the most comprehensive accounting of what happened and 
what went wrong that I have seen yet.
    Miss Rice. Does it conflict at all with the Administrative 
Investigation Board's report?
    Mr. Gibson. I would tell you, the Administration 
Investigation Board is more granular and gets down to the 
individual, by-name parties, than the CBCA finding does not.
    Miss Rice. Thank you.
    Mr. Gibson. Yes, ma'am.
    Miss Rice. I yield back. Thank you, Mr. Chairman.
    The Chairman. Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    Mr. Undersecretary, first, did I hear you correctly earlier 
that you stated wait times would not improve?
    Mr. Gibson. I don't expect wait times to go down, no. I 
think as we improve access to care, as we improve care quality, 
as we improve the veteran's experience at VA, I think we are 
going to find that demand will outstrip our ability to supply 
that care, that is my expectation.
    Mr. Huelskamp. Do they need to improve?
    Mr. Gibson. Do what need to improve?
    Mr. Huelskamp. Wait times.
    Mr. Gibson. I would love to see wait times improve, but it 
is a false promise for me to sit here--I am looking at what 
happened over the previous year. We increased in-patient and 
out-patient appointments inside and outside VA by--not in-
patient, out-patient appointments inside and outside VA by 
roughly ten percent in a year, that is huge.
    Mr. Huelskamp. Yet we had massive budget increases too, Mr. 
Undersecretary.
    Mr. Gibson. And yet what we saw were more veterans coming 
to us for care, longer wait times. We have got to ensure that 
we are providing urgent care to those veterans that need care 
urgently and--
    Mr. Huelskamp. By your own definition, you have over 
512,000 veterans waiting more than 30 days for an appointment.
    Mr. Gibson. Yes, yes.
    Mr. Huelskamp. And you are not going to improve that at 
all? You have got 142,000 waiting more than 60 days, by your 
own definition, and you can't improve that at all?
    Mr. Gibson. I would tell you that the dual focus, Dr. 
Shulkin has focused his organization very intensively on 
providing urgent care. The other area that I have pushed hard 
on and continue to push hard on are what I refer to as veterans 
waiting the longest for care. And so it starts at the longest 
wait times and works down. So that we are using the resources 
that we have to provide urgent care and to accelerate the 
access to care for those veterans waiting the longest. But for 
me to sit here and say that the 30-day wait list is going to go 
away, I don't think that is going to happen.
    Mr. Huelskamp. And, Mr. Chairman, I am sure the Committee 
has received some information on this. But the definition and I 
want you to clarify, the preferred date, it is not the date 
they come in and ask for the appointment, you start the clock 
based on the date for the appointment deemed clinically 
appropriate; is that correct?
    Mr. Gibson. Either the date, if it is provided, that the 
date is deemed clinically appropriate or the date that the 
veteran wants to be seen. The large majority of our 
appointments are return-to-clinic appointments.
    Mr. Huelskamp. I understand that and it shouldn't be a 60-
day wait for those. But who determines what is clinically 
appropriate, who is the--
    Mr. Gibson. That is a discussion between the clinician and 
the patient.
    Mr. Huelskamp. And the scheduler doesn't play a role in 
that at all? So a request comes in, the scheduler talks to the 
physician, for example, and says, what do you think when we 
should schedule that? That doesn't go to the clinician.
    Mr. Gibson. The clinician provides that clinically 
appropriate date in the--
    Mr. Huelskamp. The scheduler or the provider?
    Mr. Gibson [continued]. The provider, the clinician, the 
doctor or the nurse provides that date to the scheduler. So it 
is in the system.
    Mr. Huelskamp. So every call that comes in, the provider or 
the physician or a nurse actually makes the decision on 
scheduling?
    Mr. Gibson. If a veteran is calling in for an appointment, 
then they are asking to be seen. And in that particular--
    Mr. Huelskamp. But that is not when the clock starts, 
correct?
    Mr. Gibson. If the veteran says, I want to be seen today, 
that is exactly when the clock starts. And if the veteran is 
conveying a need, for example, I have severe chest pains, come 
in right now.
    Mr. Huelskamp. Or wait 60 days.
    Mr. Gibson. So it is that kind of fundamental triaging that 
is happening.
    Mr. Huelskamp. Okay. I am trying to understand that and I 
don't think it really gets to the point, because you are 
claiming a waiting date of only four days for mental health 
services. Is that actually the claim that you have today, you 
only have four days' wait for mental health care?
    Mr. Gibson. If you look at the average wait time for a 
completed mental health appointment, yes, that is correct.
    Mr. Huelskamp. No, not completed, waiting. What's the 
perspective, how long will they expect to wait?
    Mr. Gibson. I think the pending date is, you know, it is a 
few days longer than that on average. But I would tell you, 
what that doesn't capture is the 23 percent of appointments 
that are completed on a same-day basis, 20 percent if you 
exclude the emergency department.
    Mr. Huelskamp. I understand that. So anyway, one last 
question about the VA wait time schedule problems. In Phoenix, 
you placed two, Mr. Curry and Mr. Robinson on administrative 
leave and been there since May of 2014. What is the status of 
any disciplinary actions against these two individuals?
    Mr. Gibson. We are wrapping up those two cases right now. 
Both of those two individuals were placed on administrative 
leave at the request of IG, along with Sharon Helman.
    Mr. Huelskamp. IG doesn't make that decision, you make the 
decision. You placed them on administrative leave. Can you 
explain how somebody can be on administrative leave--
    Mr. Gibson. We made--
    Mr. Huelskamp [continued].--for a year and a half and they 
are still getting paid?
    Mr. Gibson [continued]. We made the decision, we put them 
on administrative leave at the IG's request. We have--
    Mr. Huelskamp. You told us here, Mr. Secretary--
    Mr. Gibson [continued]. --within the last several weeks--
    Mr. Huelskamp. --the IG--
    Mr. Gibson [continued]. --received the--
    Mr. Huelskamp. --makes recommendations--
    Mr. Gibson [continued]. --evidence--
    Mr. Huelskamp. --and you don't--
    Mr. Gibson [continued]. --from the IG--
    Mr. Huelskamp. Mr. Chairman--
    Mr. Gibson [continued]. --and have received the evidence 
from the IG, we are going to pursue disciplinary action.
    Mr. Huelskamp. Mr. Secretary--
    Mr. Gibson. Yes, sir.
    Mr. Huelskamp [continued].--those are recommendations from 
the IG; is that correct?
    Mr. Gibson. The recommendation from the IG--
    Mr. Huelskamp. You spent your testimony attacking the IG. 
You placed them on leave for a year and a half, paid by 
taxpayers the whole time, when will we get disciplinary actions 
against those two people that went after three brave 
whistleblowers that you have settled with in Phoenix, when will 
we get an answer, when will they be disciplined?
    Mr. Gibson. Those disciplinary actions are in process now. 
We have received all the evidence.
    Mr. Huelskamp. When will they be done?
    Mr. Gibson. Tens of thousands of pages of evidence that 
have been turned over to VA by the IG within the last 30 days 
and we are going through that evidence right now in order to be 
able to--
    Mr. Huelskamp. You have to be kidding me.
    Mr. Gibson [continued]. --take action that can be 
sustained.
    Mr. Huelskamp. After a year and a half they are still 
getting paid by the taxpayers and you can't figure out a way to 
discipline them. When will we know? You don't know?
    Mr. Gibson. As I said earlier, the practice changes now, 
because I am not going to wait any longer.
    Mr. Huelskamp. A year and a half, I would say you have 
waited long enough.
    Mr. Gibson. We waited too long.
    Mr. Huelskamp. They should lose their job or be 
disciplined, but not--
    Mr. Gibson. We waited--
    Mr. Huelskamp [continued]. --be sitting on their--
    Mr. Gibson [continued]. --too long.
    Mr. Huelskamp [continued]. --you-know-whats, getting paid.
    Mr. Gibson. We waited too long and we are not going to do 
it again, because I am not going to defer to the IG's 
investigation or, frankly, to a Department of Justice 
investigation--
    Mr. Huelskamp. So you don't know when it will be done?
    Mr. Gibson [continued]. --because I can't be assured when 
it is going to be completed. That is the change that we are 
talking about. It is unacceptable. It is not acceptable to me, 
it is not acceptable to veterans, and it is not acceptable to 
the American taxpayer.
    Mr. Huelskamp. Well, I agree. After a year and a half, it 
is time to do the job, take care of the Phoenix situation.
    Thank you. Mr. Chairman, I yield back.
    Mr. Gibson. And the other change that I mentioned that we 
have imposed is, we will not routinely place employees that are 
subject to discipline action on administrative leave. They will 
be detailed to other duties, unless there is an egregious 
example where they need to be removed from all responsibility.
    The Chairman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. I, like all of my colleagues 
here, are most concerned and as you are, about our veterans and 
making sure that they are well served on a timely basis.
    Mr. Gibson. Yes, ma'am.
    Ms. Brownley. And I know this hearing is supposed to be 
about a review of accountability and the broader 
accountabilities within the VA, and I think really for me and 
my perspective, it is much less about the disciplinary process. 
I know that that sometimes can be frustrating to people, but we 
must have the due process of the people, employees that we hire 
and retain. So I get that frustration, I understand it.
    I think my personal frustration is more about sort of the 
broader accountabilities within the VA that we are changing 
procedures, doing what we can to close loopholes and other 
kinds of things, so that when we are hiring new employees, we 
are absolutely clear to them what their responsibilities are, 
what they are held accountable for. So in the event that we 
have to get to this place of disciplinary action, we have our 
facts really, really clear. And for me that is where the 
frustration lies.
    And I think my frustration also lies when I read your 
testimony, the testimony builds up about all of the progress 
that the VA has made. And I am not doubting that we have not 
made progress, and I believe in your leadership and the 
Secretary's leadership, and I believe that you are in a mode of 
continuous improvement, I am not doubting that. But I think my 
frustration also lies in that you end up citing the very best 
data possible as it relates to wait times in your testimony. So 
if you look at pending wait times and so forth, the data, it 
paints a different picture.
    Now, you have just said in your testimony the demand 
outweighs the supply and I am not sure that we are ever going 
to be able to get there, but for me that is the kind of 
information that I want to be, you know, completely up-front 
with and not lead people down the path of look at this 
exceptional data, you know. The wait times, what did we say? I 
think you said the wait times right now, now I can't remember, 
the national wait time is four days. And that sounds great. It 
is like, oh, my goodness, where we were before and where we are 
now on a national basis, only four days. That sounds like we 
have done extraordinary work, but yet we still know that the 
problem still exists.
    In my district, for example, the pending wait time is 
roughly 28 days. You know, that doesn't sound as good. And I 
know that we are down people in the district and that is 
causing those pending wait times to be longer.
    So I think that is my frustration. And I am really looking 
to you and the VA to come back to us with ways in which we can 
improve upon our systems and regulations, so that we can be 
abundantly clear of what our expectations are, so that we don't 
run into--that we can minimize anyway, it will never be 
perfect, but that we can minimize some of these issues that we 
are talking about now, you know, with a Denver hospital, the 
Diana Rubens, Kim Graves issues. I think if we did it a little 
differently, maybe some of that would have been alleviated.
    So that is what I am posing to you as, if you can come back 
to us and show us how we can--and if we need legislative fixes 
to it, let us know that, so that we can move forward 
collectively and continue to make improvement.
    Mr. Gibson. Yes, ma'am. There are differences in the 
numbers between pending appointments and completed 
appointments, as referred to earlier. One of the most powerful 
ways we can provide timely access to care is by allowing a 
veteran to be seen on the same day and 20-plus percent of our 
appointments are in fact accomplished and completed in that 
kind of a metric. So that represents a large portion of the 
difference between pending appointment wait times and completed 
appointment wait times. I am confident, even in the three-or-
four-day metric, there are still veterans that are waiting too 
long for the care, waiting longer than they should be waiting.
    And so that is part of the emphasis of looking at those 
that are waiting the longest, those that have the most urgent 
need, to ensure that they are being prioritized and seen as 
urgently as--
    Ms. Brownley. But you understand the point that I am 
making.
    Mr. Gibson. I do understand. Yes, ma'am.
    Ms. Brownley. I think there still are other improvements 
that can be made so that our expectations are clear and then, 
if we do get to a disciplinary situation, it should be clearer, 
because I think it takes that work up front. I mean, I was a 
school board member, you know, I have been through these 
processes before, and it is a matter of management doing their 
due diligence to make things abundantly clear, to make these 
processes clearer.
    Mr. Gibson. And I would point to the changes that we made 
in every performance evaluation for every single medical center 
director as a good example of that. Where instead of just 
tracking some random activities, we are focused on the veteran 
health care outcomes that they are most directly responsible 
for and, where there is poor performance, they are held 
accountable for poor performance.
    Ms. Brownley. Thank you.
    And, Mr. Chairman, I apologize and I yield back.
    The Chairman. That is okay.
    Mrs. Walorski?
    Mrs. Walorski. Thank you, Mr. Chairman.
    So, you know, I want to just describe what it is like in my 
office in Indiana. Veterans and a lot of other advocacy groups 
watch these hearings, they tune in, they track what the VA 
says, they track the questions we ask, and they will, 
oftentimes come in and be very excited about what the VA says. 
One of the issues that in my district has been really important 
is the Choice program, which has never really rolled out 
correctly. And, you know, the VA just held a town hall meeting 
a couple of nights ago in our district. And, again, you know, 
every time the town halls roll out, it is people talking about, 
you know, the need for service, you know, they are outside the 
area, they are in a rural area. And the answer from our VISN 
comes back that the Choice program, you know, isn't really 
rolling out yet and it has got these issues. And the number of 
people that actually can apply for the program and actually 
receive any kind of help other than through the VA is very very 
small. We have continual turnover in our VISN with people that 
actually run the facilities have been expanded now all over the 
country. And one of the issues that happens in my district, 
though, and probably other districts as well, is we will get a 
veteran that walks in the front door of our district office and 
they will be carrying either a box or a bag and it is full of 
prescription drugs, high-powered opiates, psychotropic drugs. 
And they will come in and they will set this box down and they 
will say, I have all these drugs, I am in so much pain and the 
VA isn't helping me, they are just giving me more drugs and I 
don't know what to do. And they come in to us.
    And so we obviously pick up the phone, we call and make a 
congressional inquiry out of it and start asking questions. Who 
is taking care of this veteran? And, you know, we look at that 
when we look at the suicide rate and those kind of things, but 
I am curious, what is the policy, the oversight and the 
standard operating procedure that the VA uses when it comes to 
this issue of veterans that are either in-house or coming and 
going from someplace in the veteran community for mental health 
services, what kind of due diligence is the VA doing to make 
sure that there is a tight control on policy and individual 
plans then for these veterans?
    Mr. Gibson. I will take my best shot at that answer, being 
a non-clinician. I would tell you that one of the most powerful 
tools we have inside VA is the fact that we have integrated 
mental health care into the primary care practice. And so 
oftentimes, what we find, our veterans that have modest mental 
health care conditions are being treated inside the primary 
care team, and that is one of the ways that we improve access 
to care.
    I would say where we have veterans that are more 
significantly dealing with behavioral health challenges, one of 
the new tools, one of the new structures that has been rolled 
out across the department is, and I am not going to remember 
the exact name, it is a structure where, for the most seriously 
affected veterans that there is a whole team of mental health 
care professionals that look at that veteran from a holistic 
standpoint. So it could be a psychiatrist, it could be a social 
worker, it could be some group therapy provider that are all 
looking from a holistic standpoint at that particular veteran.
    Mrs. Walorski. Yeah, and I get you, that is probably the 
best-case scenario. So for the folks that come in my office, 
though, and for the issues we have, we have a very very lack of 
mental health services, we have a lot of drugs being 
prescribed.
    Mr. Gibson. Yes, ma'am.
    Mrs. Walorski. And so what happens then? So our answer to 
that veteran is what? They call the 800 number for help, they 
call the help line as a veteran with all these drugs?
    Mr. Gibson. I would hope that--
    Mrs. Walorski. What does the VA do, though, when you find 
out that there's either excess drugs being written, lack of 
supervision, lack of doctor-patient involvement? Because this 
is realtime, really happening.
    And then my second question is this, Secretary. When it 
comes to the prescription registries in individual states, like 
in the State of Indiana, there is a prescription registry that 
every single doctor, anybody prescribing any kind of heavy 
narcotic turns into that state and it is monitored. Do the VAs 
have a procedure that is nationwide that says that they work 
with those state units and they do the reporting as well? Or I 
think we had a piece of legislation last year that said that 
the VA may provide that to a state. Is that customarily 
provided to a state or is the VA pretty much self-contained?
    Mr. Gibson. My understanding is that it is standard 
practice for us to participate in those state registries. And 
that is one of the ways that we are able to help improve the 
continuity of care for those veterans that are taking habit-
forming drugs.
    Mrs. Walorski. And if there is a doctor violating that in a 
state, what is the role of the veteran? Does the veteran call 
the congressional office and we call the VA when we know or 
have some kind of suspicion that there is going on inside of 
the facility, over writing of prescriptions or lack of 
supervision?
    Mr. Gibson. The focal point is the VA physician. I would 
tell you that as we have rolled out the opioid safety 
initiative all across the department, what we have built are 
dashboards for every single facility and every single physician 
that allow us to see at all levels of the organization, the 
activity and intensity of opioid prescriptions.
    Mrs. Walorski. And has that led to greater compliance, the 
dashboard, has that led to greater compliance?
    Mr. Gibson. It has, yes, and reduced incidents of opioid 
prescriptions.
    Mrs. Walorski. I appreciate that.
    I yield back my time, Mr. Chairman.
    The Chairman. Mr. O'Rourke, you are recognized.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here and for answering 
all of our questions, and I think perhaps just as importantly 
listening to some of the concerns and suggestions on how we 
make improvements. I do want to make sure that this continues 
to be a collaborative relationship to the degree that it can 
with our oversight responsibility.
    Mr. Gibson. Yes, sir.
    Mr. O'Rourke. And I have got to tell you, I sympathize with 
the fact that you are managing, you know, an all-funds, all-
accounts budget organization that controls $156 billion that 
has one of the most sacred responsibilities that this country 
has to fulfill, and you and Secretary McDonald, and actually 
you before Secretary McDonald, took this over at a time of 
unparalleled crisis. And so I am trying to figure out what the 
balance is between the Committee and the VA and the 
administration, I want to focus on outcomes. I want you to hit 
those things that are your commitment that I know you deeply 
believe in. I don't want to get into personnel issues in a $156 
billion organization. And yet because of the trust that was 
broken with this Committee, with this country, with the 
veterans, with the VSOs who represent them, I think it is very 
understandable that there is a heightened sensitivity on the 
part of the Committee when we see a Diana Rubens situation, 
when we see an egregious failure by a doctor or a prescriber in 
some part of the VA, there is going to be an intensive focus on 
that to see if it signals that in fact we are turning the 
corner or whether there are still systemic problems. And so I 
just think it is important to say that.
    And one other thing is just another imperfect analogy. I 
was on the city council in El Paso for six years and I was 
typically the dissenting vote on personnel issues that we would 
handle in executive session. The attorneys would always say, 
you know what, this employee whose violation was from the 
trivial to the more serious, it is much cheaper for us to 
settle with them, to put them in another job, to move them to 
the sanitation department instead of to fire them. I am always 
that one or maybe joined by one other colleague vote to spend 
perhaps, you know, two to three times what it would cost to 
keep the employee to send a signal throughout the organization 
and hopefully change the culture that, if you screw up here, 
you are out of here and we will take the extra expense.
    So just speaking for myself, there's greater tolerance 
perhaps on the Committee, but certainly with me to spend a 
little bit more up front to get the culture right, even if it 
costs us in legal proceedings and, you know, protracted 
proceedings to get these bad actors out of there.
    Mr. Gibson. Yes, sir.
    Mr. O'Rourke. I want to also commend you and the Secretary 
and the Undersecretary for Health for the excellent plan that 
you presented to us, I guess it was last month, the end of last 
month, to reform the way that care is delivered. And I would 
challenge the conclusion that you have reached that we will 
never be able to keep pace with demand. I think the plan that 
you presented which maximizes what I think are the core 
competencies with the VA, with what we can have complementary 
in the community can help us to see more veterans more 
effectively, more efficiently, and I think we can get closer to 
a more reasonable wait time. And so, just I hope that that 
ultimately becomes your conclusion as well, or maybe I 
misinterpreted what you said.
    Mr. Gibson. I hope we deliver on the outcome you have just 
described.
    Mr. O'Rourke. Right.
    Mr. Gibson. The question will be, how do veterans respond 
with their demand for care. You know, if you fix demand, I am 
confident that we can shorten wait times, absolutely confident.
    Mr. O'Rourke. So I want to use this remaining year that you 
have and the administration has and the Secretary has to leave 
those indelible changes that are going to ensure that this 
culture that we have to change, the performance we have to 
change, the outcomes we have to change, you are not going to 
get them all to where they need to be in this year, but I want 
to do the most possible within this year to get us as far along 
on the path as possible.
    To that end, and I know I didn't leave you a lot of time, 
in terms of going forward prospectively when we are hiring, 
what are you looking for, what kind of decisions are we making 
in hiring so that we don't have these problems going forward? 
So that we are hiring the right people into the right culture 
for the VA.
    Mr. Gibson. I would tell you my own personal perspective, 
you look at values, will and skill. And if you can't find 
people that share your organizational values, if you have 
people that don't have the willingness to do the job, then it 
is a nonstarter. People may or may not have the skill, in 
hiring you expect that people will have the skill, but as we 
bring people into the organization, I didn't allude to this 
earlier, but in the majority of those instances where the IG 
did not find misconduct in locations where there were questions 
about scheduling, the conclusion was the people weren't 
trained. And if you look across VHA, there is no standard 
training for a medical support assistant, it is all over the 
board. We have tried to plug that problem by rolling out, you 
know, many thousands of man hours of additional training. But 
the ultimate solution is to roll out an enterprise-wide, and we 
have got one identified, two-week, face-to-face, hands-on 
training program for schedulers. It is hard to justify firing 
somebody if you haven't trained them to do their job.
    So that is one of the obligations that we have. We agree 
that we need to hire the right person, but I would also tell 
you we have got to make sure that we do our part to train them 
to do the work.
    The Chairman. Dr. Abraham, you are next.
    Mr. Abraham. Thank you, Mr. Chairman. And thank you, 
Deputy, for being here with Ms. Flanz.
    Mr. Gibson. Yes.
    Mr. Abraham. I just want to kind of hit some points that 
you made during your opening statements. You alluded to that we 
need to have a little more patience, we need to get some more 
discipline established. And I think I could give you a good 
argument that both the veteran and this Committee has the 
patience of Job waiting for these things to occur. So we are 
still waiting.
    I want to appeal your previous life as a leader of combat 
troops, a leader of business. If you as a platoon leader had 
come to your company commander and say, if you had troops in 
combat and said, well, sir, give me more time and we need more 
discipline, the outcome would have been much more severe than 
the Committee is doling out now. And I don't think it is too 
far of a stretch to say that our veterans now are like troops 
in combat. The longer that they are having to wait, ravaged 
with disease, whether it be diabetes, heart disease or 
anything, we are losing lives. And we don't mind patience to a 
point, but it is to the point now that daily our veterans are 
dying, waiting for the VA, you as the leader, to get these 
things done, daily we know veterans are dying. And again, this 
is not making a better washing machine in business, these are 
actually lives we are dealing with.
    You alluded also in your statement that we need to look at 
more of the strategic, the broad, the long-term game, and I 
certainly agree with that. But again, going back to your role 
as a combat commander, you know if you didn't have tactical 
victories, the strategical long game meant absolutely nothing.
    So I guess the questions are two. One, you alluded to the 
IG report. And I am a little concerned that, I guess you do 
have the authority to usurp what the IG recommends and I guess 
that is in your broad authority as Deputy Secretary and Mr. 
McDonald's as being Secretary, but is there a standard 
operating procedure, as Mrs. Walorski alluded to, as when you 
get these reports, do you have to do certain things in the 
objective checkbox, so to speak, as to we have got to handle it 
this way, or can you go off on any road you want?
    And my second question, and then I will leave you all the 
time you want to answer. You also alluded in your opening 
statement about the Mr. Frederick Harris, the VA employee that 
has been charged with manslaughter at the Alexandria Hospital 
in Louisiana, that is in my district. I would just ask what his 
current status is at the department right now.
    Mr. Gibson. If I can take that one first. I have no idea, 
but I assure you, before the day is out, I am going to find 
out.
    Mr. Abraham. I would appreciate that.
    Mr. Gibson. I would be glad to let you know too, because I 
am as interested as I suspect as you are.
    Mr. Abraham. Okay. Thank you, sir.
    Mr. Gibson. If I can make one quick comment about sense of 
urgency, believe me that we have a sense of urgency.
    Mr. Abraham. And I don't argue that.
    Mr. Gibson. As we waded into the access crisis, it was all 
hands on deck, we are focused on improving access to care. My 
comments earlier go to really reenforce that to ensure that 
veterans that need care urgently are receiving care urgently. 
So--
    Mr. Abraham. And I think we just want to see some tactical 
victories here.
    Mr. Gibson. Believe me, we are--well, I would say seven 
million more completed appointments is at least a tactical 
victory.
    Mr. Abraham. But my veterans, I know the four and five days 
for primary care, for mental health. But it is like, as you 
have heard here, when we go back in our districts, we don't 
have one or two veterans come up to us and say we are waiting, 
we have dozens that say I cannot get an appointment.
    Mr. Gibson. Yes, sir.
    Mr. Abraham. And again, we throw our hands up in there and 
say, well, we are trying. Well, that is not good enough for our 
veterans.
    Mr. Gibson. And I agree with that. And in your part of the 
country one of the things we have been doing is enhancing our 
facilities there, so that we can provide more ready access to 
care. That is part of what as a leader I have to do is to 
create the conditions that enable those front-line staff to 
meet or exceed the expectations of veterans and we are, believe 
me, focused on doing that. Focused on correcting the problems 
in care in the community, as we have discussed here two weeks 
ago, so that that is a more effective tool as well to ensure 
that veterans are getting the care they need when they need it.
    So there is, believe me, a sense of urgency.
    Your question as it relates to IG reports. There are 
essentially always a set of findings or conclusions or 
recommendations that the IG has, and we have a discipline 
process that we go through and respond to those and provide 
regular updates to those. In the case of this particular 
instance, there were recommendations that the Secretary or the 
Undersecretary consider whether or not there is any appropriate 
accountability action that needs to be taken. And I can assure 
you, whether they recommended it or not, we would have been 
doing that anyway. The mechanism by which we do that oftentimes 
involves launching a separate investigation.
    I would tell you in the particular case of the relocation, 
we found the information and the evidence that we needed in the 
investigative material that the IG gathered. So we did not have 
to go do a separate and independent investigation of those 
particular matters to move through a very deliberate process, 
but as expeditious as we can, notwithstanding the delay that we 
cost ourselves by our own administrative error to get to the 
appropriate conclusion.
    Mr. Abraham. I am out of time, but we are continuing to 
wait impatiently, as you know.
    Mr. Gibson. Yes, sir.
    Mr. Abraham. Thank you, Mr. Chairman.
    Mr. Gibson. I understand.
    The Chairman. Undersecretary, just for the record, we had 
written a letter to Secretary Shinseki back in 2013 and then I 
wrote a letter to Secretary McDonald in October of this year, 
Ms. Flanz, you may be aware of this in regards to that 
particular issue, and I have not gotten a response on either. 
So I appreciate your willingness to dig into it and let us know 
what is going on.
    Mr. Gibson. I will do that. Yes, sir.
    The Chairman. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman.
    And, Deputy Secretary, as always, thank you for being here.
    Mr. Gibson. Yes, sir.
    Mr. Walz. And I thank my colleagues in building on what 
they are saying. I understand the complexity, Mr. O'Rourke was 
very clear about that, the complexity of your job, tens of 
thousands of personnel actions. We certainly don't expect, nor 
it be not a good use of your time to be focusing on all of 
those. But I think you are hearing it from my colleagues, there 
are times when that large, systemic reform that we are all 
looking for is jeopardized, and it is the small chips in the 
things.
    And one of the things is, is that I think we do have a 
responsibility in this job to channel our constituents and that 
is what you are hearing.
    Mr. Gibson. Yes, sir.
    Mr. Walz. And my constituents say, when you see these guys, 
will you ask them this. And so while it may seem petty, it is 
not petty. Perceived reality is reality.
    And I have to say, I have tried to balance this 
accountability and due process, looking at pieces of 
legislation. As I heard, we didn't need the SES reform bill 
because you had all the tools. Well, apparently we did. Others 
have been offered that I have pushed back against, but it is 
challenging when I see this happen.
    I am just trying to understand this latest issue. This was 
every veteran in the country was watching this. We did an 
unprecedented step that pained us to issue subpoenas. We were 
told that there would be accountability and now this plays out. 
And I have to tell you, my veterans have no faith that it is 
going to work, they don't believe this. And I am just trying to 
understand.
    And in the midst of this for perceived reality, sending one 
of these people to Phoenix of all places afterwards? Can you 
take me through the personnel steps of how this unraveled? And 
I certainly understand things can happen, but in this one, this 
would have been one that I would have personally walked all the 
way through, I am just saying, because now we can't get at 
stuff.
    And I think there is reason to be optimistic, I agree with 
Mr. O'Rourke. That hearing last week was the best hearing we 
have had in this Committee in two years. It was optimistic, it 
was visionary, it was getting at the heart of this. Veterans 
came up to me who watched it and said that they felt things 
were changing. And I haven't been more optimistic on electronic 
medical records than maybe in eight years than I am right now. 
There are important things happening, positive things happening 
for veterans, but it is all being undermined.
    So how did we end up in this mess? And yes, it is 
parochial, it is in my backyard. I made the case of this and I 
promised my veterans there would be accountability. You heard 
the frustrations. And I will let you, as I said, you are the 
person who needs to do this, because you have earned and have 
the trust and faith of folks, but right now this thing is a 
mess.
    Mr. Gibson. As I have said before, my careful review of the 
entire body of evidence does not support the conclusions 
reached in the IG. Folks that have no familiarity with this 
case other than the report that they read from the IG, I can 
understand precisely why they share the concern that you are 
expressing right now. And I made the decision that I made with 
the full, painful awareness that this was a decision that was 
not going to make people happy in any way, shape or form, but I 
did what I believed what was the right thing to do.
    And as I mentioned earlier, I look forward to coming back. 
I will sit down with any Member, come see you one-on-one, if 
you would like, or any Member one-on-one or the group in total 
to walk through the decision process, walk through the 
evidence, and share the entire body of evidence, unredacted, 
all the evidence that was used to substantiate the decision 
that was made.
    Mr. Walz. Well, that may be important, because we have got 
to get this. And I have to go back, because you can't do that 
for each and every veteran, I have got to go back and stand in 
front of them. And I am not interested in a witch hunt, I do 
believe that due process is important. It is a morale issue, it 
is a fairness issue.
    Mr. Gibson. Yes, sir.
    Mr. Walz. I can't pass judgment and judge, jury and 
executioner on an employee of yours, I understand that. It is 
just a combination of things and it appears like the lack of a 
sense of urgency. And I don't know how to convey that more to 
folks that this is changing, because it is undermining 
veterans' faith in the really important, critical work you are 
doing.
    Mr. Gibson. Thank you for raising that particular issue 
and, if I may, if I can mention two quick points.
    The first thing that I want to say to the entire Committee, 
my personal perception has been and continues to be that 
historically VA did not consistently take appropriate 
disciplinary action in the face of misconduct or management 
negligence, period. We have not historically done that. That is 
one of the reasons I created the Office of Accountability 
Review was because I did not have confidence that if I pushed 
those decisions out into the field, that we would get the 
outcomes that we needed. There was a resetting and 
recalibration of accountability actions and the process 
associated with that, and that is why I created the Office of 
Accountability Review, that is why I personally am the 
proposing and deciding official on every senior executive 
action, the serious actions for removal or removal from a 
senior executive service, because I am trying to model a 
leader's behavior and accountability for those leadership 
actions. And a senior executive see themselves being held to 
that account, to that standard, I am hoping that then gets 
modeled elsewhere in the organization. And we certainly talk 
about that robustly.
    I agree with you that it takes too long, I agree with you 
that we are having to wait too long, and that is the impetus 
behind my decision to say we are not going to wait any longer. 
Where there is an issue--we knew that there was an issue around 
the relocation expenses months before the IG released their 
report. But what did we do? We waited for the IG to go through 
all the process. That is not how we are going to approach it. 
And I am telling you, we are already doing this. There are 
already AIBs underway or OMI inspections underway, Office of 
Medical Inspector inspections that are underway right now where 
we know that the IG is already in the facility, but we are in 
there as well. And I have said, please don't get in our way, 
because we are going to go in, we are going to gather whatever 
evidence we need. If we can do that cooperatively with the IG, 
that's great. But we are going to move ahead, we are going to 
take the action that we can take. If the IG comes back with a 
different finding and different evidence, fine, then it will 
give us the opportunity to consider any additional action.
    Mr. Walz. Thank you, Mr. Chairman, for the extra time.
    And I know I am not telling you anything new, Deputy 
Secretary, but, boy, I would lean forward into this.
    Mr. Gibson. Yes, sir.
    Mr. Walz. If you don't do it, I think you are going to 
jeopardize not only the public's trust in this, you are going 
to violate the due process rights of others, because the hammer 
is going to come in a way that is not going to be helpful.
    Mr. Gibson. Yes, sir.
    Mr. Walz. I yield back.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary Shinseki resigned only after this, I think the 
White House saw that this Committee unanimously voted to 
subpoena records related to or communications related to the 
appointment wait time scandal. Then you and Secretary McDonald 
come in, really didn't make changes in the bureaucracy, became 
part of the bureaucracy, defended the bureaucracy. Problems 
have only really come to light through either whistleblowers or 
through things just blowing up.
    Then you had a President who in the last State of the 
Union, after scandal after scandal, said of the VA one sentence 
in the State of the Union speech, he said that the Veterans 
Administration has had some bumps in the road, but veterans are 
getting state-of-the-art health care. That was it.
    I think you are doing the best you can do, I think 
Secretary McDonald is doing the best that he can do, but you 
are both placeholders and you don't have the authority from the 
White House, you don't have the support from the President to 
make the kind of changes that need to be made. You know what 
needs to be done, Secretary McDonald knows what needs to be 
done, but you absolutely don't have the support nor the 
authority to do so.
    So this agency of the Federal Government was in crisis when 
you came in, it will be in crisis when you leave. You give 
great spin here, I appreciate it. I really think you are trying 
to do the best you can do. But again, you absolutely have no 
support from the White House, no ability to make a difference. 
We will just do the best we can between now and the next 
administration in terms of logging the problems.
    But if you take the issue, I mean, we had in my district 
the largest cost overrun in the history of the Veterans 
Administration in a construction. The problems were known since 
April of 2013 when there was a GAO report. Yet even since then 
the management on that project received bonuses. Nobody has 
been disciplined. The AIB has been done for five months, yet 
Congress has not received it. There is no confidence anymore in 
this Committee, there is no confidence and trust among the 
veterans of this country, nor should there be. We are just 
treading water and that is where it is going to be between now 
and the end.
    Can you tell me when the AIB, when you are going to give it 
to the Congress, this Committee, on the Aurora construction 
issue?
    Mr. Gibson. As I mentioned to Congresswoman Rice earlier, 
the plan had been to wait until the IG completed their 
investigation, we are not waiting. I have directed that we move 
ahead with the evidence that we have, including that AIB, to 
consider any appropriate administrative actions on any employee 
that remains at VA, and we are doing that right now. I expect 
that that is not going to take an extraordinarily long period 
of time, but I don't have an absolute deadline by which I have 
instructed folks to complete it, but it is relatively soon. We 
have waited too long for that already.
    Mr. Coffman. Mr. Chairman, I think it is a tragic situation 
we are in right now that the veterans of this country are not 
getting the benefits that they have earned and the taxpayers 
are not getting the value of their hard-earned tax dollar, and 
I just don't see that changing between now and the next 
administration.
    I yield back.
    The Chairman. Dr. Benishek.
    Mr. Benishek. Mr. Chairman, thank you.
    Thanks for being here, Mr. Gibson.
    Mr. Gibson. Yes, sir.
    Mr. Benishek. I was a little disturbed by your written 
testimony as well. I don't think we really want to see people 
fired, we want to see the VA be successful. And, frankly, it 
seems to me that we have come to the conclusion that the VA is 
unable to remove people that are not doing their job as we see 
it to be done.
    I am just going to give you one example that really kind of 
eats at me and that is, you know, the Inspector General has 
told the VA eight separate times over the last 30 years they 
need a central plan to hire physicians. And each time the VA 
has agreed with the Inspector General that that is the case and 
that they are going to do it, but over 30 years there is no 
plan to hire physicians centrally. They each are hired by each 
individual medical center even today. And then in a 
Subcommittee hearing when I brought this up they said, well, we 
might have a plan to do it, that plan in three years. And then 
I said, well, who is in charge of that? And I could not get an 
answer.
    So that is the accountability that we are talking and I am 
talking about is that 30 years and this plan isn't done. I know 
you weren't here, but it is very frustrating to see that. And 
we want to see people who actually do the job and get these 
kind of things done. And I have got to assume that, unless 
somebody is removed and somebody is made accountable to make 
that happen, all kinds of stuff like this aren't going to 
happen. So that is the frustration.
    I mean, last month Danny Pummill, the veterans benefits 
exec, said it is almost impossible to discipline most VA 
employees. Do you agree with that?
    Mr. Gibson. I think there are processes that you have to 
follow, but I don't think it is impossible.
    Mr. Benishek. What can I do as a Congressman, is there 
something legislatively that we can do to make it easier for 
you to get this kind of stuff done?
    Mr. Gibson. The issue particularly as it relates to serious 
discipline actions has to do primarily with the evidentiary 
standard that we have to meet, because employees have the right 
to appeal those decisions. So when they are appealed, we appear 
before the MSPB, the Merits System Protection Board, and have 
to justify our actions based upon the evidence that was the 
foundation of those actions.
    Mr. Benishek. Well, it seems to me that you said this in 
the past too, that it is very difficult to fire somebody in the 
VA. I mean, can we change this? I think I asked that question 
already, but you kind of give me like long answers. I mean, 
what should be changed to make this easier?
    Mr. Gibson. I think there are processes that cut across the 
entire Federal Government that are associated, long established 
and associated with disciplinary actions in the Federal 
Government that have lots of public policy implications 
associated with them, and we operate in that context. Some of 
the comments that were made earlier about ensuring that we have 
assigned the appropriate objectives and measurable goals that 
people need to have in their performance evaluation gives us 
the kind of quantitative information we need to be able to take 
that action.
    Mr. Benishek. Okay. Now, let me just go on, because we 
don't have much time, Mr. Gibson. I know you said repeatedly 
that the VA won't tolerate whistleblower retaliation. Has 
anybody been fired for whistleblower retaliation?
    Mr. Gibson. There have been, and I will ask Meghan to 
correct me if I get it wrong, ten instances of retaliators that 
have been disciplined, up to including removal.
    Mr. Benishek. All right. Can we find out who that is then? 
Because we are just not aware of any of that here, I don't 
think.
    Ms. Flanz. I believe that was one of the data points 
requested in a letter from the Committee in October and we 
compiled some data that is getting ready to come over to the 
Committee.
    Mr. Benishek. All right. I will yield back, Mr. Chairman.
    The Chairman. Thank you very much. Members, we were not 
going to a second round, if that is okay. We will end with Ms. 
Brown and my closing comments.
    Ms. Brown?
    Ms. Brown. Thank you.
    As we prepare to leave Washington, I know I am getting 
ready to date myself here, but when I was coming up it was a 
program on TV, ``Badge 714,'' and they used to say, ``The 
facts, ma'am, just the facts.'' And I think that this is what 
you are trying to say to us, Mr. Secretary, not what you read 
in the paper or the rumor mills, but you have to make your 
recommendation based on the facts.
    Can you respond to that?
    Mr. Gibson. Yes, ma'am, you are right. Any deciding 
official is obligated to consider the evidence and the only 
evidence in taking a disciplinary action against the Federal 
employee.
    Ms. Brown. I also want to extend this comment to all of the 
veterans that might be listening. You know, under this 
administration, under this President, we have had the largest 
increase in VA funding in the history of the United States of 
America.
    Mr. Gibson. Yes, ma'am.
    Ms. Brown. Now, this President has not gotten the credit 
for it. It was under this President and the Democratic House 
and the Democratic Senate.
    And I also want to extend season's greetings to General 
Shinseki who, you know, he opened up the VA for additional 
people that did not have to prove their cases, but we as a 
Congress then beefed up to give the VA the additional resources 
that they need to take care of it. So it is a blame-blame game. 
But as we move forward, I do want to let the veterans know and 
the people that take care of our veterans that we appreciate 
them soldiering up, and that we need to let the veterans know 
and the people that work at the VA that we appreciate what they 
do to take care of our veterans.
    Mr. Gibson. Yes, ma'am. And I would add my own expression 
of gratitude both for the President's consistent and steadfast 
support of VA and veterans, and also this Committee, this 
Committee's steadfast support. I know we don't always see 
things exactly the same way, but I have never doubted the 
Committee's motives and what are the ultimate objectives that 
we are trying to achieve here, and that is better outcomes for 
veterans.
    Ms. Brown. And I agree with that. And I want to thank the 
Chairman for his leadership on this Committee.
    And in my last question to you, I am still concerned about 
the comments. I recently, last night, I went to the theater 
and, before I went in, they checked my purse. In addition to 
that, I had to have a clear bag going into the facility. So I 
would like to know how we can begin the dialect of guarding the 
VA facilities to make sure that we are proactive and that we 
don't have another incident or we don't have an incident that 
we are sitting here talking about, what is it we can do to give 
you the assistance that you need to make sure that we take care 
of the veterans and the employees and make it a very safe place 
to work?
    Mr. Gibson. Yes, ma'am. What I would suggest is that 
perhaps we bring a couple of our key leaders over and walk 
through the comprehensive situation that we face and what some 
of the potential improvements are to the security posture of 
the department, because it is something that we have been very 
focused on particularly in the wake of what happened in El 
Paso.
    Before you got here, sir, I talked a little bit about what 
happened in Denver last week where we had a much different and 
more positive outcome than we had in El Paso, fortunately.
    Ms. Brown. Thank you again for your service.
    And, with that, I yield back the balance of my time.
    The Chairman. Thank you very much, Ms. Brown.
    Mr. Secretary, would it be inappropriate for Ms. Brown and 
I to invite the President to join us on a visit to the central 
office?
    Mr. Gibson. Sir, I can assure you that is your call.
    The Chairman. I think we will do that, because I have made 
the comment a couple times that he has not been to the central 
office and whether his schedule has allowed it or not. But we 
are all trying to resolve the issues that are out there. VA 
will never be perfect and we don't expect you to be perfect. 
Anecdotal evidence is brought to us all the time. Somebody 
handed me a note a second ago about a combat helicopter pilot, 
Navy captain, PTSD for over 20 years in San Diego, his 
psychiatrist has left. He couldn't get his prescription renewed 
and was told that the next appointment he could get was 60 
days. I mean, little things like that, you know, can turn into 
a huge snowball.
    Mr. Gibson. Those are big things. That's not a little 
thing, that is a big thing, and I know you see it that way. 
Please let me know.
    The Chairman. Well, we will get you the appropriate 
information.
    Mr. Gibson. Thank you.
    The Chairman. And, again, nobody on this Committee expects 
you to be able to handle every single individual issue that is 
out there, because some cannot be handled. And Ms. Brown is 
correct, I used a curse word at the beginning, because I was a 
little upset. I don't think you meant what you said, but maybe 
you did. But I would ask unanimous consent that you strike the 
word damn from the record and put dang, d-a-n-g. Hearing no 
objection, so ordered.
    And, again, I think we can all agree from a political 
perspective that we want VA to be the very best it can be.
    Mr. Gibson. Yes, sir.
    The Chairman. We want to give you whatever tools are 
necessary. The whole idea on the disciplinary side, it just 
looks like it is so hard to do anything. Whether it is 
reprimands, I mean, I have been looking at your list, I see 
reprimands that are appealed by individuals. And, you know, I 
saw one where somebody was going to be suspended for less than 
14 days and they left, they left the department. I mean, I just 
don't get how that process works, if we can help streamline it. 
And I know it is all across, it is not just VA. It is all 
across the Federal Government, it is not just your rules and 
regulations.
    But I would ask unanimous consent that all Members would 
have five legislative days with which to revise and extend 
their remarks and add any extraneous material. And without--oh, 
Ms. Brown?
    Ms. Brown. Yes, just in closing. Mr. Chairman, I think it 
should be a bipartisan meeting with the President, and maybe we 
all could maybe go to the White House because of security or 
vice versa, but I think that would be a good thing to do.
    The Chairman. Well, again, I think it is important that the 
President goes to the central office and that is why I asked 
the issue. And if he can walk across the street for lunch as he 
did a couple of weeks ago, he can certainly walk across the 
street to go to the central office. But it does need to be 
bipartisan and all the Members need to be there.
    Ms. Brown. I mean the Senate, I mean bicameral. Yeah, we 
need to invite the Senators.
    The Chairman. I don't know about the Senators.
    Mr. Gibson. Just for the record, the President did come to 
the central office to announce Bob's nomination. So he has been 
there before.
    Ms. Brown. We are speaking of one of our town hall type 
meetings and discussions with him and I think that would be 
good, good for the country.
    The Chairman. This hearing is adjourned.

    [Whereupon, at 12:33 p.m., the Committee adjourned.]




                            A P P E N D I X

                              ----------                              

          Prepared Statement of Corrine Brown, Ranking Member
    <bullet>  Thank you, Mr. Chairman.
    <bullet>  In order for veterans to receive the benefits and 
services we have promised them, it is essential that VA employees be 
treated fairly.
    <bullet>  Part of this fairness, I believe, is that bad employees 
must be held accountable for their actions and for not doing all they 
should be doing for our veterans.
    <bullet>  I am concerned that there is a perception that there is 
no accountability within VA, and that the agency is not using its 
current authorities to manage its workforce effectively.
    <bullet>  There is no excuse not to hold employees accountable when 
their actions harm veterans.
    <bullet>  Time and again, VA employees themselves have come forward 
to blow the whistle on wrongdoing at the VA.
    <bullet>  We need to do all we can to protect whistleblowers. These 
brave VA employees have played a crucial role in shining a light on 
problems within the VA.
    <bullet>  But in my view, providing VA with unfettered authority to 
remove employees will do more harm to whistleblowers than it will be 
effective in removing bad employees.
    <bullet>  Employees who are brave enough to come forward to report 
problems should be thanked, not punished.
    <bullet>  VA employees, like all federal employees, are guaranteed 
the Constitutional due process right to fair notice and an opportunity 
to respond before losing their jobs.
    <bullet>  VA needs to do a better job of rooting out malfeasance, 
and setting up systems that incentivize all VA employees to provide 
veterans with the best possible care.
    <bullet>  VA must take steps, today, to change the perception that 
there are no consequences for not doing your job.
    <bullet>  Basic fairness and civil service protections do not 
prohibit VA from holding its employees accountable to veterans.
    <bullet>  Today, we must demand accountability from VA leadership.
    <bullet>  Accountability for protecting whistleblowers; 
accountability for rewarding good employees, and accountability for 
punishing bad employees.
    <bullet>  Accountability, quite simply, for using the authorities 
that VA currently possesses to effectively manage the over 300,000 VA 
employees - one-third of whom are veterans themselves.
    <bullet>  Let's use the opportunity before us today to discuss how 
VA can do a better job, while protecting the basic concept of fairness 
that we all expect from our government.
    <bullet>  Thank you, Mr. Chairman. I yield back the balance of my 
time.

                                 <F-dash>
                   Prepared Statement of Sloan Gibson
    Good morning, Mr. Chairman and Members of the Committee. I am 
grateful to have the opportunity this morning to provide an update on 
our efforts to reset accountability across the Department of Veterans 
Affairs. Accompanying me is Meghan Flanz, our Deputy General Counsel 
for Legal Operations and Accountability.

Accountability Defined

    It seems the term ``accountability'' has taken on a new meaning. 
Instead of the dictionary definition - ``providing a record or 
explanation of one's conduct'' - the term has become shorthand for 
firing people.
    Secretary McDonald and I want to reclaim the term 
``accountability'' in its fuller meaning, in the sense of being 
transparent about what our goals are and how well we achieve them, what 
taxpayers can expect us to achieve with each dollar we receive, what 
Veterans can expect us to do for them, by when, and to what level of 
quality and satisfaction.
    Abraham Lincoln said ``Commitment is what transforms a promise into 
reality.'' Within that framework, we believe ``accountability'' is 
interchangeable with ``commitment.'' We hold ourselves accountable for 
making good on our promises to Veterans - to President Lincoln's 
promise to care for those who have borne the battle and for their 
survivors - by providing timely, high-quality care and service to 
Veterans, while using taxpayer dollars wisely.
    In that fuller sense, accountability means setting the right goals, 
both as an organization and for individual employees, so the work we do 
produces the outcomes Veterans deserve.
    <bullet>  It means ensuring our employees have the training and 
resources necessary to achieve those goals.
    <bullet>  It means providing a work environment that is free of 
fear, so our employees feel safe raising concerns about the work we do 
and about the quality and safety of our programs and processes.
    <bullet>  It means setting clear performance standards and 
expectations up front, and then assessing performance candidly, based 
on actual achievement
    <bullet>  It means rewarding people for exceptional performance 
that furthers desired outcomes.
    <bullet>  It means training our leaders to lead, and ensuring they 
understand our vision of a transformed VA that provides Veterans with a 
satisfying - even delightful - experience with VA care and services.
    <bullet>  Accountability also means taking appropriate actions when 
things go wrong. It means taking the time to understand the reasons for 
a failure - whether it's a systems failure, lack of clear policy or 
guidance, insufficient training, or an intentional act of misconduct.
    <bullet>  It means responding to failures quickly, with a sense of 
urgency, to make things right for Veterans and to learn from our 
mistakes.
    <bullet>  Accountability also means disciplining those who have 
done wrong, swiftly and meaningfully but in a way that is proportionate 
to the offense. Significant offenses and repeated misconduct may well 
warrant removal. Other offenses may warrant less severe, corrective 
penalties rather than terminating employment.
    If we define ``accountability'' only in the narrower way - in terms 
of the number of employees we remove from their jobs serving Veterans - 
then success on the accountability front means failure in our core 
mission, service to Veterans. Overemphasis on punitive measures 
prevents us from recruiting and retaining the best and brightest 
employees to serve Veterans. Secretary McDonald and I are not 
interested in a definition of success that requires us to decimate our 
workforce and, ultimately, to close our doors.
    We define ``accountability'' broadly, to include achievement of 
Veteran-centric goals and continuous improvement of VA programs and 
systems, because the narrower definition isn't good for Veterans.
    With the Veteran-serving sense of ``accountability'' as our 
definition, here is what we have accomplished this year:

Where we started

    In the context of patient access and scheduling data manipulation 
concerns that came to light at the Phoenix VA Medical Center, 
allegations of whistleblower retaliation, concerns about over-
prescription of opioids at the Tomah VAMC, and cost overruns related to 
our construction of a replacement medical center in Denver, CO, VA has 
experienced a crisis of confidence.
    As a result, throughout 2015, VA's Office of the Inspector General 
(OIG) remained extremely busy, investigating a wide variety of 
allegations raised by whistleblowers and others across the broad 
spectrum of VA programs and services. The VA OIG website lists 400 
reports published in Fiscal Year (FY) 2015, with a large number of 
investigations still ongoing.

What we have done

    Expanding access to VA care
    <bullet>  Nationally, the Veterans Health Administration (VHA) 
completed 56.2 million appointments between June 1, 2014 and May 31, 
2015, which is 2.5 million more than were completed in the comparable 
time period the year prior.
    <bullet>  In October 2015, VA completed 97 percent of appointments 
within 30 days of the clinically indicated or Veteran's preferred date; 
91 percent within 14 days; 87 percent within 7 days; and 24 percent are 
actually completed on the same day.
    <bullet>  VA's average wait time for completed primary care 
appointments is 4 days, specialty care 5 days, and mental health care 3 
days.
    <bullet>  VA is a national leader in telehealth services. VA 
Telehealth services are critical to expanding access to VA care in more 
than 45 clinical areas. At the end of FY 2014, 12.7 percent of all 
Veterans enrolled for VA care received Telehealth based care. This 
includes over 2 million telehealth visits, touching 700,000 Veterans.

Providing More Care in the Community

    <bullet>  VHA created 2.4 million authorizations for Veterans to 
receive care in the private sector from November 19, 2014 through 
November 18, 2015. The average authorization generates 7 appointments.
    <bullet>  Over 1.4 million appointments are completed per month 
through doctors and clinics in the community, which represents nearly 
23 percent of total appointments.

Recruiting and Hiring New Healthcare Professionals

    <bullet>  From August 2014 to September 30, 2015, VHA has increased 
net onboard clinical staff by over 15,000. This includes over 1,500 
physicians, 3,900 nurses, and 566 psychologists for VHA's clinical care 
to Veterans.

Improving Healthcare Services for Women Veterans

    <bullet>  VA has enhanced provision of care to women Veterans by 
focusing on the goal of developing Designated Women's Health Providers 
(DWHP) at every site where women access VA. VA has trained over 2,200 
providers in women's health and is in the process of training 
additional providers to ensure that every woman Veteran has the 
opportunity to receive her primary care from a DWHP.
    <bullet>  VA now operates a Women Veterans Call Center (WVCC), 
created to contact women Veterans and let them know about the services 
for which they may be eligible. As of June 2015, WVCC received over 
24,000 incoming calls and made over 219,000 successful outbound calls.

Ending the Claims Backlog

    <bullet>  The Veterans Benefits Administration (VBA) completed 1.4 
million claims in FY 2015, nearly 67,000 more than last year and the 
highest completion rate in VA history. FY 2015 marked the sixth year in 
a row of more than 1 million claims.
    <bullet>  VBA reduced its claims backlog 88 percent from a peak of 
610,000 in March 2013 to a historic low of 75,122; reduced inventory 58 
percent from a 884,000 peak in July 2012 to 369,328 (28 percent lower 
than FY 2014). At the same time, VBA has sustained claims-processing 
quality at 90.2 percent; issue quality at 96 percent; and above 98 
percent in 7 of 8 categories in which we measure quality.
    <bullet>  The average days a Veteran is waiting for a claims 
decision (pending) is 91 days, a 191-day reduction from a peak of 282 
days in March 2013 and the lowest average days pending in the 21st 
Century. VBA's average days to complete is now 129 days - a 60-day 
reduction from FY 2014.

Reducing the Number of Homeless Veterans

    <bullet>  VA has worked with federal, state, and local partners to 
reduce the estimated number of homeless Veterans by 36 percent as noted 
in the Department of Housing and Urban Development (HUD) 2015 Point-in-
Time Estimate of Homelessness. With the assistance of VA and other 
Federal partners, numerous communities, including the entire 
Commonwealth of Virginia, have now declared that they have ended 
Veteran homelessness.
    <bullet>  In FY 2015 alone, nearly 65,000 Veterans obtained 
permanent housing through VHA Homeless Programs. In FY 2014, 50,730 
homeless Veterans obtained permanent housing through these initiatives.
    <bullet>  Through the homeless Veterans initiative, VA committed 
more than $1 billion in 2015 to strengthen programs that prevent and 
end homelessness among Veterans.

Transforming the Customer Service Experience through MyVA

    <bullet>  VA is working to reorganize the department for success, 
guided by ideas and initiatives from Veterans, employees, and all of 
our shareholders. This reorganization, part of the MyVA initiative, is 
designed to provide Veterans with a seamless, integrated, and 
responsive customer service experience.
    <bullet>  MyVA is our transformation from VA's current way of doing 
business to one that puts the Veterans in control of how, when and 
where they wish to be served. Under MyVA, the Department has created a 
integrated regional framework to enhance services.

Employee Discipline - Our Approach and the Overall Numbers

    We continue to approach employee discipline as we have done since 
Secretary McDonald and I took office - with a commitment to do what is 
right and necessary to rebuild Veterans' trust in VA programs and 
services.
    Of course, punitive action against employees must be reserved for 
instances involving actual evidence of misconduct. This is not only the 
right way to impose discipline but it is the legal way. If VA does not 
have evidence of misconduct, any disciplinary action taken by VA will 
not be upheld on appeal. This remains true under the Senior Executive 
accountability provision of the Choice Act, and under the more 
traditional disciplinary procedures that apply to VA's non-Senior 
Executive Service (SES) employees.
    It is important to note what constitutes evidence of misconduct--
and what does not. \1\ Materials such as documentary evidence, data, 
and witness testimony constitute evidence. VA works with its OIG to 
provide and compile evidence. But VA cannot rely wholesale on an OIG 
report to impose discipline. Under the law, ``summary, unsworn, hearsay 
conclusions'' in an OIG report will not support discipline. \2\ For 
that reason, VA must carefully consider the evidence underlying adverse 
OIG reports to make sure there is substantiated evidence of misconduct 
upon which VA can rely to impose discipline.
---------------------------------------------------------------------------
    \1\ Prouty & Weller v. General Services Administration, 2014 MSPB 
90 (December 24, 2014),
para.6.
    \2\ Prouty & Weller v. General Services Administration, 2014 MSPB 
90 (December 24, 2014),
para.6.
---------------------------------------------------------------------------
    Similarly, the fact that VA OIG has referred a matter to DOJ for 
possible criminal investigation or prosecution does not constitute 
evidence of misconduct. Rather, referral simply means that VA OIG has 
asked DOJ to review the matter to determine whether any of the 
underlying allegations, if proven, might constitute a crime. Because, 
under the Constitution, individuals are presumed innocent unless and 
until proven guilty, we cannot support employee discipline on the basis 
of a pending criminal referral.
    It is also important to note that VA does not rely solely on OIG or 
DOJ to investigate misconduct. Though VA respects and appreciates the 
work of its partners, sometimes OIG and DOJ move at their own pace or 
are restricted by their own resource constraints. Thus, Secretary 
McDonald and I are committed to collecting relevant evidence quickly 
and effectively through our own resources, where necessary and 
appropriate, rather than allowing issues to remain unresolved 
throughout a protracted external investigation. When the evidence 
collected demonstrates misconduct warranting discipline, it is also 
important to understand the due process we are required to afford all 
VA employees, including Senior Executives. There is a long line of case 
law that tells us that Federal employees - like those who work for 
state and local governments - have a constitutionally-protected 
property right in continued employment. That doesn't mean they can't be 
fired for misconduct, but it does mean that they are entitled to due 
process before they are fired. Pre-decisional due process includes the 
right to provide a meaningful response to the charges and evidence 
against them before a decision is made.
    One thing that can undermine pre-decisional due process is 
inordinate pressure on the deciding authority to reach a particular 
decision. Where such pressure exists, it can be hard for the deciding 
authority to make an independent decision based solely on the evidence. 
In the military, this phenomenon is referred to as ``unlawful command 
influence.'' In our world, the pressure to reach a particular decision 
doesn't come from our commander, but rather from Members of Congress 
and/or the press who react to an OIG report or a news story by 
demanding an employee's termination. Whether such demands are actually 
intended to influence the decision-maker or merely to express outrage, 
they challenge our ability to take fair, neutral, and sustainable 
actions. They also wrongly undermine Veterans' faith in VA employees 
when - as sometimes happens - little or no discipline is taken because 
the underlying evidence does not support the story as reported.
    In early November, this Committee held an oversight hearing focused 
on issues underlying what were then two pending employee discipline 
matters. Secretary McDonald and I implored the Committee then to defer 
the hearing until after we had made our decisions in those matters. I 
reiterate the plea today that the Committee please permit us to carry 
out the Executive Branch responsibility of proposing and deciding 
employee discipline independently, without undue influence, to ensure 
that our actions are sustainable and that Veterans are not misled about 
the conduct of VA employees upon whom they depend.

Senior Executive actions

    The Choice Act authorizes the Secretary to remove a Senior 
Executive from employment, or from the Senior Executive Service through 
demotion to a non-SES position. The Secretary has delegated that 
authority to me. We have used the Choice Act removal authority ten 
times since it took effect in August 2014. We have proposed removal of 
eight Senior Executives from Federal employment; three individuals' 
removals were effected, and the others chose to resign or retire in 
lieu of removal. We had also removed two employees from Senior 
Executive Service to non-SES positions. Due to administrative error, 
these demotions had to be rescinded. We have corrected the error and 
proposed actions are now back in the employees' hands.
    While the paperwork effecting a resignation or retirement in lieu 
of removal is coded to reflect the underlying circumstances, by law, 
any Federal employee who has the years of service and is of an age to 
retire is entitled to do so. By law, the only basis for terminating a 
Federal employee's retirement benefits is if the individual has been 
convicted of espionage, treason, or one of the other national security 
offenses listed in 5 U.S.C. Sec.  8312.

Non-Senior Executive Actions

    VA provides a weekly report to the Chairmen and Ranking Members of 
the House and Senate Committees on Veterans' Affairs in response to a 
June 3, 2014 request from this Committee for information related to 
employee discipline ``taken on any basis related to patient scheduling, 
record manipulation, appointment delays, and/or patient deaths.'' The 
latest report, sent on Friday, November 27, shows 316 such actions 
proposed or decided between June 3, 2014 and November 25, 2015. This 
tally includes proposed penalties ranging from counseling through 
removal and is limited to the types of misconduct listed in the 
Committee's June 3, 2014 request.
    The Department is frequently asked for information reflecting the 
total number of employees fired in a given Fiscal Year, or since 
Secretary McDonald's July 2014 confirmation. That number is currently 
over 2,400. However, as noted earlier, we believe such numbers to 
reflect only a small and less than useful fraction of the information 
needed to accurately assess the VA's accountability activities. 
Moreover, we have seen the conversation about such numbers quickly 
devolve from a meaningful assessment of our accountability efforts to 
skeptical questions about why one set of numbers we report differs from 
another, or why we ``allow'' employees to resign or retire before a 
removal action can be completed. Of course the numbers we report depend 
upon the question asked, and - as has been noted - all Federal 
employees have the legal right to retire or resign with or without a 
proposed removal pending.
    Framed within that necessary context, the Fiscal Year 2015 count of 
employees who were for any reason removed, terminated during probation, 
or retired or resigned with a removal action pending is as follows:


                      FY 2015 Adverse Action Totals
    Removals, Probationary Terminations, Resignations and Retirements
                          effective within FY15
------------------------------------------------------------------------
               Action Taken                    Number of Actions Taken
------------------------------------------------------------------------
Probationary Termination                                            950
------------------------------------------------------------------------
Removal                                                             869
------------------------------------------------------------------------
Employee Resigned in lieu of                                        423
------------------------------------------------------------------------
Employee Retired in lieu of                                         106
------------------------------------------------------------------------
Total                                                              2348
------------------------------------------------------------------------
Data current as of 11/18/2015 0700


Discipline related to Scheduling/Access Data Manipulation

    With respect to employee discipline for scheduling and access data 
manipulation, we have relied upon the VA OIG to provide us the evidence 
they have collected through the approximately 120 VA health-care-site-
specific investigations they began in 2014. Where that evidence is 
inadequate to answer all questions relating to individual employee 
misconduct, the VA Office of Accountability Review (OAR) initiates 
follow-up investigations to complete the evidentiary record.
    <bullet>  OIG has provided the Department with reports and evidence 
relating to 77 VA sites.
    <bullet>  At 62 of those 77 sites, OIG found no data manipulation 
had occurred.
    <bullet>  At 6 sites - Phoenix AZ, Cheyenne WY, Ft. Collins CO, 
Dublin GA, Wilmington DE and Hines IL - OIG substantiated intentional 
misuse of scheduling or other access data. We have taken a total of 21 
disciplinary actions, ranging from reprimand to removal, in connection 
with misconduct at these sites. There may be additional actions 
considered at Phoenix when OIG releases all of the relevant evidence to 
the Department.
    <bullet>  At 9 sites, OIG found scheduling practices that were not 
in accord with VHA policy but did not make conclusive findings with 
respect to individual misconduct. OAR has convened administrative 
investigations at those sites to determine whether, and for whom, 
discipline is warranted.
    <bullet>  We are still awaiting OIG's reports relating to 43 VA 
sites.

Discipline Related to Whistleblower Retaliation

    <bullet>  We continue to work collaboratively with the Office of 
Special Counsel (OSC) to improve our supervisors' understanding of the 
whistleblower protection laws and to speed relief to whistleblowers who 
believe they are experiencing retaliation.
    <bullet>  OSC is the independent Federal investigative and 
prosecutorial agency authorized by the Whistleblower Protection Act to 
protect federal employees and applicants from prohibited personnel 
practices, especially reprisal for whistleblowing.
    <bullet>  This past summer, OSC's Director of Training and Outreach 
provided in-depth training to representatives from VA's Office of 
General Counsel and Office of Accountability Review (OAR) to enhance 
VA's capacity to investigate whistleblower retaliation and to hold 
those who retaliate accountable.
    <bullet>  We are grateful to Special Counsel Carolyn Lerner and her 
staff for their continuing collaboration with OAR and VHA's Office of 
the Medical Inspector to address unsafe or unlawful health care 
practices and support corrective measures, including discipline, where 
such deficiencies are found.
    <bullet>  It is also worth noting that the large majority of 
allegations referred to OSC ultimately are not substantiated.
    <bullet>  We share Ms. Lerner's concern that discipline should not 
flow more swiftly and easily to whistleblowers than to retaliators. We 
are optimistic that our continued collaboration with OSC will ensure 
proper treatment for whistleblowers and for those who may retaliate 
against them.

Discipline Related to Over-prescription of Opioids and Other Issues at 
    the Tomah VA Medical Center

    <bullet>  In January 2015, the Milwaukee Journal Sentinel and other 
publications ran an article about over-prescription of painkillers by 
the then-Chief of Staff of the Tomah VA Medical Center, who is a 
psychiatrist, and cited several former Tomah employees' complaints 
about retaliatory behavior after they questioned the Chief of Staff's 
prescribing practices. The article also cited an unpublished March 2014 
VA OIG ``administrative closure'' report finding the Chief of Staff's 
prescriptions were ``at considerable variance compared with most opioid 
prescribers'' and ``raised potentially serious concerns.''
    <bullet>  We acted quickly to prohibit the Chief of Staff and an 
affiliated nurse practitioner from providing care to Veterans and 
initiated a comprehensive evaluation of the quality of the care they 
provided. The then-interim Under Secretary for Health ordered a series 
of three clinical reviews to assess practice patterns, prescribing 
habits, and staff interactions at Tomah. In reports issued between 
March and August 2015, these review teams found that the Chief of 
Staff's prescriptive practices were potentially unsafe and that an 
apparent culture of fear existed at the Tomah facility which comprised 
patient care and damaged staff satisfaction and morale.
    <bullet>  Simultaneously, OAR began a series of administrative 
investigations into alleged mismanagement by Tomah VAMC leadership. 
Those reviews led to a number of leadership changes at the Tomah 
facility. The Chief of Staff lost his clinical privileges and was 
removed from Federal employment; his removal is currently pending 
appeal. The Former Medical Center Director and Associate Director both 
resigned. Madison VAMC Director John Rohrer, a native of La Crosse 
whose father receives his care from the Tomah VA, became acting Tomah 
Medical Center Director from mid-March through late September 2015. Mr. 
Rohrer worked closely with facility leaders, union leaders, employees 
and external stakeholders (including Veterans Service Organizations) to 
assure that ongoing investigations did not disrupt clinical care and 
that all voices were heard.

Accountability Related to the Denver Construction Project Cost Overrun

    <bullet>  In early 2015, VA engaged the U.S. Army Corps of 
Engineers (USACE) to evaluate four major construction projects to 
identify program weaknesses and opportunities for improvement in the 
management and execution of the program.
    <bullet>  USACE identified a fundamental need for VA to undergo a 
``transformative change in organizational process'' to be effective at 
controlling cost and schedule growth in the major construction program. 
VA agreed with this assessment and has issued new policy that 
identifies roles and responsibilities for the development of needs, 
requirements and control of design and construction.
    <bullet>  One of the highest profile projects reviewed by USACE is 
the replacement Denver Medical Center. The considerable cost overruns 
and delays associated with building the Denver center cast doubt on the 
prospect of completing the project and raised difficult questions about 
the future of VA's construction program.
    <bullet>  In response to USACE's findings, VA has instituted a 
process to assure that any change to the scope and/or budget of major 
construction projects are justified and approved as required to safely 
and effectively deliver health care before any resources are committed 
to executing the requirement change.
    <bullet>  In addition to these process improvements, we have made 
sweeping changes in the leadership of our construction and acquisition 
programs, through retirements and resignations at the senior-most 
levels and reassignment of some lower-level employees to roles more 
consistent with their skill sets.
    <bullet>  To look at individual accountability at all levels, we 
also convened an administrative investigation board, under the auspices 
of OAR but with assistance from an external expert from the Department 
of the Navy's Medical Facilities Design Office and a construction 
contracting law expert from VA's Office of General Counsel. That group 
has finished its work in July and it is being reviewed for any 
accountability actions that may be warranted against current VA 
personnel.

Discipline Related to VBA's Senior Executive Relocation Practices

    In an investigative report issued on September 28, 2015, VA OIG 
took issue with VBA's policies and practices for reassigning Senior 
Executives between and among Regional Offices and other VBA leadership 
positions.
    The OIG report addressed both people and processes. While we agree 
with the findings with respect to processes and have already 
implemented improvements to address those findings, we were very 
disturbed to find that the underlying evidence does not support the 
report's findings with respect to people.
    On the process side -
    <bullet>  The report identified issues with VBA's use of the 
Appraised Value Option (AVO) program, which helps relocating employees 
sell their primary residence, and with other aspects of the Permanent 
Change of Station (PCS) expense reimbursement process.
      o  We have discontinued the AVO program and undertaken a review 
of PCS reimbursements across the Department to determine how best to 
administer those payments and to ensure we are making the best use of 
taxpayer money.
    <bullet>  The report also identified inconsistencies in the way VBA 
pays relocation incentives and adjusts executives' salaries upon 
reassignment.
      o  While salary adjustments and other relocation incentives are a 
vital management tool for any geographically dispersed organization, we 
need to be sure VA is using those incentives wisely, when and where 
they are needed to attract top talent to challenging leadership 
assignments. We've undertaken a top-to-bottom review of our relocation 
incentive policies and practices to ensure we are using them properly.
    On the people side, the report asserted that two VBA Regional 
Office Directors were ``inappropriately coerced'' to leave their 
stations so their supervisors could come in and take their jobs, with 
their relocations inappropriately paid for at taxpayer expense., We 
found that there were significant gaps between the rhetoric in the 
report and the relocated employees' testimony. Both of the subordinate 
Directors testified, repeatedly, that they had initiated the talks that 
led to their relocation. While one of them ultimately felt pressured to 
move to a different Regional Office than the one he preferred, neither 
provided any testimony consistent with the finding that they were 
``inappropriately coerced'' to leave assignments they wanted to keep, 
nor did the evidence establish that the superior leaders' reassignments 
to their subordinates' former positions was improper or contrary to 
law. Moreover, VA OIG could not identify any violation of law, rule, or 
regulation in the reimbursements the two higher-level executives 
received related to the costs of their moves.
    What the evidence did show - and what the higher-level executives 
have been disciplined for - was that these senior leaders' failure to 
fully extricate themselves from the decisions surrounding their 
subordinates' reassignments and relocation benefits created the 
appearance that the transactions were approved for reasons other than 
the best interests of Veterans. This was not ``inappropriate coercion'' 
nor, in our attorneys' analysis, a criminal conflict of interest, but 
it did demonstrate less than sound judgment, warranting these leaders' 
demotion.
    While the evidence did warrant the actions we have taken, Secretary 
McDonald and I remain disturbed by the gaps between the rhetoric in the 
OIG report and the underlying evidence because the published report, 
which expressly referenced pending criminal referrals, and OIG's press 
release identifying the subject executives by name, created a public 
expectation that these two career employees should be fired and forced 
to repay large sums of money expended to support their moves. That 
unfounded expectation does a distinct disservice to taxpayers and to 
the Veterans we all serve.
    Last August, Congress gave VA expedited authority to remove Senior 
Executive leaders from Federal employment or from the Senior Executive 
Service to a lower-paid position when their performance or misconduct 
warrants removal. It is a humbling thing to end someone's career. It is 
one of the most difficult things I do in this role, but I have done it 
when it was warranted. I have removed a number of VA executives whose 
misconduct or poor performance put Veterans' health or taxpayer dollars 
at risk. I will do that when it is the right thing to do, when the 
evidence supports it.
    But it does not help Veterans or taxpayers to fire a high-
performing executive whose lapse of judgment warrants a less severe 
penalty. In light of all the facts and evidence - and notwithstanding 
the OIG report's unfounded rhetoric - the right thing to do was to 
demote these executives rather than fire them. That is what I decided 
to do.
    As we told the Committee last week, an administrative error 
required us to withdraw the demotion actions to correct the incomplete 
evidence files that were initially provided to the employees. That was 
a very regrettable error occasioned by our haste to get the proposals 
issued quickly. We have corrected the error and the actions are now 
back in the employees' hands.

Looking Ahead

    I'd like to end as I began, with President Lincoln's observation 
that ``Commitment is what transforms a promise into reality.''
    Secretary McDonald and I are committed to sustainable 
accountability, to a VA in which employees know what is expected of 
them and do it, and then some.
    Sustainable accountability means VA uses taxpayer dollars wisely 
and well to improve post-military life for our war fighters and their 
families.
    Our commitment to sustainable accountability is reaping benefits 
today.
    We know it is working because Veterans now have easier access to VA 
care and to care in the community than they did before.
    We know it is working because claims take less time to process, and 
are more likely to be processed accurately than before.
    We know it is working because Veteran homelessness is down and 
health care provider hiring is up.
    Ultimately, you will know it is working when the number of 
disciplinary actions goes down, not up.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to questions you or other Members may have.

                                 <F-dash>
                        Statement For The Record

                      OFFICE OF INSPECTOR GENERAL
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to provide a statement for the hearing record that will 
clarify the role of the Office of Inspector General (OIG) regarding 
VA's actions to hold VA staff accountable in general and specifically 
with respect to the OIG's recent report, Administrative Investigation: 
Inappropriate Use of Position and Misuse of Relocation Program and 
Incentives in VBA.
    As the Committee knows the OIG conducts many types of reviews-
audits, inspections, evaluations, and administrative and criminal 
investigations. While most of our reports include specific 
recommendations for VA to take in response to our findings, with regard 
to administrative investigations or any report that has findings that 
may require individual accountability, we use more general language so 
as not to interfere with the due process rights of employees who may be 
subject to administrative action. We reiterated this position in our 
statement for the Committee's October 21, 2015, ``An Examination of the 
VA Office of Inspector General's Final Report on the Inappropriate Use 
of Position and the Misuse of the Relocation Program Incentives'' 
hearing when we said:

         Our statements and comments will be limited in order to 
preclude any allegation that our testimony unduly influenced VA or the 
Department of Justice regarding potential administrative or criminal 
action.

    We would like to clarify the role of the OIG with respect to the 
VA's responsibility to hold people accountable. The OIG's role is to 
provide oversight of VA's programs, operations, and people. Inspectors 
General have no authority or responsibility for program functions. It 
is a VA program function to take any type of action, be it writing a 
policy, educating and training staff, or taking disciplinary or 
performance based administrative actions.
    We agree with VA's statement that it ``cannot rely wholesale on an 
OIG report to impose discipline.'' Our reports are not evidence; rather 
they are a summary of the evidence obtained and reviewed by OIG staff. 
It is VA's obligation to request and review all documentation and other 
evidence that the OIG obtained relating to the report and to conduct 
additional work if necessary before taking administrative action. We 
fully recognize that the standards for administrative action require 
this as well as applying the evidence for a different purpose. However, 
we take exception to the inference that we based the subject report on 
``unsworn hearsay conclusions.'' All interviews conducted during the 
work on this report were sworn and taped interviews conducted by 
experienced senior OIG staff.
    The Inspector General Act requires that OIG's post issued reports 
on their websites within 3 days. We cannot control nor can we be 
influenced by what the media and others publicly state about the 
report. There is nothing in the OIG's press statement for the subject 
report that was not published in the report. Further, it is the 
longstanding practice to include the names of senior officials and this 
report is no different from other reports on OIG administrative 
investigations.
    We would also like to take this opportunity to clarify some 
information regarding the OIG's investigations into scheduling and 
access data manipulations and differences in the number of 
investigative cases. We have been working diligently on finishing the 
investigations we opened on scheduling and wait time manipulations. We 
provided VA's Office of Accountability Review with 77 reports related 
to 73 sites of care. However, in 52 of those 77 reports, we did 
substantiate some type of scheduling issue ranging from outright data 
manipulation to intentionally game the system to simply not following 
VA policies and procedures. We have 36 open investigations involving 33 
sites of care remaining. These numbers in some cases reflect that the 
OIG opened more than one investigation at a particular Veteran Health 
Administration facility. Unrelated allegations pertaining to a unique 
site were worked under separate case numbers to ensure thorough 
tracking of each allegation and corresponding investigative work. Past 
experience has proven that rolling unrelated allegations into a single 
report is not only cumbersome and may delay the issuance of a report, 
it also unnecessarily creates Privacy Act concerns when the VA used 
evidence supporting reports of investigation to initiate multiple 
unrelated administrative actions.
    In conclusion, different views on the weight of evidence are 
indicative that the OIG work was conducted independently and without 
influence by VA. Now that VA has corrected their administrative errors 
by making all evidence available to the individuals involved, we expect 
VA to take appropriate steps to protect the due process rights of these 
individuals as well as all employees as they move forward with 
appropriate accountability actions.

                                 [all]
</pre></body></html>
